APPENDIX

1a
APPENDIX A
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
FILED
____________
United States Court
LEVI FRASIER,
Plaintiff - Appellee,
v.
DENVER POLICE OFFICERS
CHRISTOPHER L. EVANS, #05151;
CHARLES C. JONES, #04120; JOHN H.
BAUER, #970321; RUSSELL BOTHWELL,
#94015; JOHN ROBLEDO,
Defendants – Appellants,
-------------------------------------------------THE RUTHERFORD INSTITUTE; FIRST
AMENDMENT LEGAL SCHOLARS; CATO
INSTITUTE; AMERICAN CIVIL LIBERTIES
UNION; AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF COLORADO;
INSTITUTE FOR JUSTICE; ELECTRONIC
FRONTIER FOUNDATION; NATIONAL
POLICE ACCOUNTABILITY PROJECT; THE
REPORTERS COMMITTEE FOR FREEDOM
OF THE PRESS; AMERICAN SOCIETY OF
NEWS EDITORS; THE ASSOCIATED PRESS
MEDIA EDITORS; ASSOCIATION OF
ALTERNATIVE NEWSMEDIA; BOSTON
GLOBE MEDIA PARTNERS, LLC;
CALIFORNIA NEWS PUBLISHERS
ASSOCIATION; CALIFORNIANS AWARE;

of Appeals
Tenth Circuit
March 29, 2021
Christopher M.
Wolpert
Clerk of Court

No. 19-1015

2a
THE COLORADO BROADCASTERS
ASSOCIATION; THE COLORADO FREEDOM
OF INFORMATION COALITION; THE
COLORADO INDEPENDENT; THE
COLORADO PRESS ASSOCIATION; THE
COLORADO SUN; DIGITAL FIRST MEDIA,
LLC; THE E.W. SCRIPPS COMPANY;
FIRST AMENDMENT COALITION; FIRST
LOOK MEDIA WORKS, INC.; FREEDOM OF
THE PRESS FOUNDATION; GANNETT CO.,
INC.; THE INTERNATIONAL
DOCUMENTARY ASSOCIATION; THE
INVESTIGATIVE REPORTING PROGRAM;
THE INVESTIGATIVE REPORTING
WORKSHOP; THE MCCLATCHY COMPANY;
THE MEDIA INSTITUTE; MPA – THE
ASSOCIATION OF MAGAZINE MEDIA; THE
NATIONAL FREEDOM OF INFORMATION
COALITION; THE NATIONAL PRESS CLUB;
THE NATIONAL PRESS CLUB
JOURNALISM INSTITUTE; NATIONAL
PRESS PHOTOGRAPHERS ASSOCIATION;
THE NEW YORK TIMES COMPANY; NEWS
MEDIA ALLIANCE; ONLINE NEWS
ASSOCIATION; RADIO TELEVISION
DIGITAL NEWS ASSOCIATION;
REPORTERS WITHOUT BORDERS;
REUTERS; THE SOCIETY OF
ENVIRONMENTAL JOURNALISTS; SOCIETY
OF PROFESSIONAL JOURNALISTS;
TEGNA INC.; THE TULLY CENTER FOR
FREE SPEECH; VICE MEDIA LLC,
Amici Curiae.

3a
___________________
Appeal from the United States District Court
for the District of Colorado
(D.C. No. 1:15-CV-01759-REB-KLM)
__________________
David C. Cooperstein, Assistant City Attorney,
(Jamesy C. Trautman, Assistant City Attorney, with
him on the briefs), Denver City Attorney’s Office,
Denver, Colorado, for Defendants-Appellants.
Elizabeth Wang, of Loevy &
Colorado, for Plaintiff-Appellee.

Loevy,

Boulder,

Matthew R. Cushing, Adjunct Faculty, University of
Colorado Law School, Boulder, Colorado, filed an
amicus curiae brief for First Amendment Legal
Scholars in support of Plaintiff-Appellee.
Mark Silverstein and Sara R. Neel, of American Civil
Liberties Union and American Civil Liberties Union
Foundation of Colorado, Denver, Colorado; and Anya
Bidwell, of Institute for Justice, Austin, Texas; and
Jay R. Schweikert and Clark M. Neily, III, of CATO
Institute, Washington, D.C., filed an amici curiae
brief for American Civil Liberties Union and
American Civil Liberties Union of Colorado, Institute
for Justice, CATO Institute, in support of PlaintiffAppellee.
Sophia Cope and Adam Schwartz, of Electronic
Frontier Foundation, San Francisco, California, filed
an amicus curiae brief for Electronic Frontier
Foundation in support of Plaintiff-Appellee.
David Milton, Boston, Massachusetts; Eugene
Iredale, Julia Yoo, and Grace Jun, of Iredale and Yoo,

4a
APC, San Diego, California, filed an amicus curiae
brief for National Police Accountability Project in
support of Plaintiff-Appellee.
Christopher F. Moriarty, John W. Whitehead, and
Douglas R. McKusick, of The Rutherford Institute,
Charlottesville, Virginia, filed an amicus curiae brief
for The Rutherford Institute in support of the
Plaintiff-Appellee.
Steven D. Zansberg, of Ballard Spahr, LLP., Denver,
Colorado, filed an amicus curiae brief of The
Reporters Committee for Freedom of the Press and
38 media organizations in support of PlaintiffAppellee.
__________________
Before HOLMES,
Circuit Judges.

KELLY,

and

BACHARACH,

HOLMES, Circuit Judge:
__________________
After Plaintiff-Appellee Levi Frasier videorecorded Denver police officers using force while
arresting an uncooperative suspect in public, one of
the officers followed Mr. Frasier to his car and asked
him to provide a statement on what he had seen and
to turn over his video of the arrest. Mr. Frasier at
first denied having filmed the arrest but ultimately
showed the officer the tablet computer on which he
had video-recorded it. He did so after an officer,
Defendant-Appellant Christopher L. Evans, and four
other members of the Denver Police Department,
Officer Charles C. Jones, Detective John H. Bauer,
Sergeant Russell Bothwell, and Officer John Robledo
— the other Defendants-Appellants — surrounded

5a
him and allegedly pressured him to comply with their
demand to turn over the video. Mr. Frasier contends
that when he showed Officer Evans the tablet
computer, the officer grabbed it from his hands and
searched it for the video without his consent. Mr.
Frasier has sued the five officers under 42 U.S.C.
§ 1983, claiming they violated and conspired to
violate his constitutional rights under both the First
and Fourth Amendments. The officers moved the
district court for summary judgment on qualifiedimmunity grounds, and the court granted them
qualified immunity on some of Mr. Frasier’s claims
but denied it to them on others.
The district court, as relevant here, held that
Officer Evans had reasonable suspicion to detain Mr.
Frasier throughout their twenty-three-minute
encounter because Mr. Frasier lied to him about
filming the arrest, thereby potentially violating
Colorado Revised Statutes § 18-8-111, which
proscribes
knowingly
making
certain
false
statements to the police. The court, therefore,
granted Officer Evans qualified immunity on Mr.
Frasier’s claim that the officer illegally detained him
in violation of the Fourth Amendment, and Mr.
Frasier did not oppose granting summary judgment
to the other officers on this claim. Officer Evans did
not move for summary judgment on Mr. Frasier’s
claim that he illegally searched Mr. Frasier’s tablet
computer in violation of the Fourth Amendment, but
the other officers did. The court granted them
summary judgment because the record did not
support a finding that they personally participated in
the alleged search.

6a
The district court, however, denied the officers
qualified immunity on Mr. Frasier’s First
Amendment retaliation claim even though it had
concluded that Mr. Frasier did not have a clearly
established right to film a public arrest. The court
held that the record nonetheless supported a finding
that the officers actually knew from their training
that people have a First Amendment right to record
them in public. And the court ruled that officers are
not entitled to qualified immunity when they
knowingly violate a plaintiff’s rights. The court also
denied the officers qualified immunity on Mr.
Frasier’s civil-conspiracy claims on the ground that
the record supported a finding that the officers, in
surrounding him and allegedly demanding the video
from him, had agreed to force him to submit his
tablet computer to a search in violation of his First
and Fourth Amendment rights. The officers now
timely appeal from the district court’s partial denial
of qualified immunity. Exercising jurisdiction under
28 U.S.C. § 1291, we reverse.
I
A
We begin by setting forth the district court’s
findings of the facts that are supported by the
summary-judgment record, when viewed in the light
most favorable to Mr. Frasier, the non-movant. See
Halley v. Huckaby, 902 F.3d 1136, 1143 (10th Cir.
2018) (observing that when “[w]e review the district
court’s denial of summary judgment on qualified
immunity,” we “apply[] the same standard as the
district court” and, thus, “view[] the evidence . . . in
the light most favorable to the non-moving party”);

7a

accord Est. of Smart by Smart v. City of Wichita, 951
F.3d 1161, 1169 (10th Cir. 2020). We do so because
“[t]he district court’s factual findings and reasonable
assumptions comprise the universe of facts upon
which we base our legal review of whether
defendants are entitled to qualified immunity.”
Sawyers v. Norton, 962 F.3d 1270, 1281 (10th Cir.
2020) (quoting Cox v. Glanz, 800 F.3d 1231, 1242
(10th Cir. 2015)).
When the district court “concludes that a
reasonable jury could find certain specified facts in
favor of the plaintiff, the Supreme Court has
indicated we usually must take them as true—and do
so even if our own de novo review of the record might
suggest otherwise as a matter of law.” Sawyers, 962
F.3d at 1281 (quoting Est. of Booker v. Gomez, 745
F.3d 405, 409–10 (10th Cir. 2014)); see Johnson v.
Jones, 515 U.S. 304, 313 (1995) (stating that we
generally lack jurisdiction to hear an interlocutory
challenge to “a district court’s summary judgment
order that, though entered in a ‘qualified immunity’
case, determines only a question of ‘evidence
sufficiency,’ i.e., which facts a party may, or may not,
be able to prove at trial”). With those limitations on
the scope of our factual review in mind, we now turn
to the facts that the district court found apply to the
officers’ motions for qualified immunity at summary
judgment.1

In recounting the relevant facts here, we rely upon the
factual recitation of the district court in its order denying
defendants’ motion for partial summary judgment. See Aplts.’
App. at 1011–17 (Order Re: Defs.’ Mot. for Partial Summ. J.,
filed Nov. 21, 2018).
1

8a
On August 14, 2014, Detective Bauer of the
Denver Police Department saw a silver car
participate in a drug deal in a public parking lot in
Denver, Colorado. He radioed for backup and
followed the car to another public parking lot, where
he approached the car, announced he was the police,
and ordered the car’s driver to show his hands. When
the suspect did not obey the detective’s order, the
detective pulled him from his car and pinned him
against it. At that point, Sergeant Bothwell arrived
on scene to assist the detective.
The suspect removed a sock from his waistband
and stuffed it in his mouth. The officers thought the
sock contained contraband and ordered the suspect to
“spit it out,” but he refused to do so. The officers fell
to the ground with the suspect as they tried to
remove the sock from his mouth. Mr. Frasier stood
nearby in the parking lot, and Detective Bauer asked
him for help. After confirming that Detective Bauer
was a police officer, Mr. Frasier agreed to help and
briefly grabbed the sock. Before Mr. Frasier could
assist the officers to a significant degree, however,
other uniformed officers started showing up and
Sergeant Bothwell asked Mr. Frasier to step back,
which he did. Mr. Frasier moved about ten feet away
and started video-recording the event using his tablet
computer.
Officers Evans and Jones arrived on scene and
joined in the effort to subdue the resisting suspect,
who continued to refuse to release the sock from his
mouth. Mr. Frasier’s video captured Officer Jones
hitting the suspect in the face six times in rapid
succession. And he filmed the officers’ response to a
screaming woman who approached them as they

9a
continued to struggle on the ground with the suspect:
Officer Jones pushed her away, and then Officer
Evans grabbed her ankle and pulled her off of her
feet. As the suspect finally let go of the sock,
Sergeant Bothwell called out “Camera.”
Once the officers handcuffed the suspect, Mr.
Frasier stopped filming and returned to his parked
vehicle. He hid his tablet computer because he
thought that he had captured police misconduct and
was afraid that the officers might try to make his
video “disappear.” Officer Evans followed Mr. Frasier
to his parked vehicle and asked him to bring his
identification and the video of the arrest to the
officer’s patrol car. Mr. Frasier brought his driver’s
license, but not his tablet computer containing the
video, to the patrol car.
Officer Evans told Mr. Frasier that he needed a
witness statement from him. When he asked Mr.
Frasier whether he had video of the arrest, Mr.
Frasier claimed that he did not. Then, Officer Evans
pointed to the back seat of his patrol car and told Mr.
Frasier, “Well, we could do this the easy way or we
could do this the hard way.” Mr. Frasier thought that
Officer Evans was threatening to take him to jail if
he did not produce the video. The officer handed Mr.
Frasier a witness statement form, which he
proceeded to fill out. After Mr. Frasier provided a
skeletal written account of what he had seen (one
that omitted the officers’ use of force against the
suspect and the screaming woman), Officer Evans
wrote a series of questions on the form that he then
had Mr. Frasier answer. The questions concerned
whether Mr. Frasier observed “the officers do
anything inappropriate” or use any force after “they

10a
had the suspect in custody,” and whether he had
taken (and still had) any “video footage of the
incident.” Mr. Frasier responded in writing that he
did not see any inappropriate police conduct, that the
officers stopped using force as soon as they had the
suspect in custody, and that he took only a Snapchat
photo of the arrest, which he no longer had a copy of
because “Snapchat removes [footage] as soon as you
send [it].” Mr. Frasier’s answers were all lies; he
admitted that he lied on the police form because he
was afraid that if he told the truth he “would have
been incarcerated and the video that [he] took would
be taken away.”
After Mr. Frasier completed his written witness
statement, an unidentified officer asked him where
his video of the arrest was. When he again denied
having taken a video, the unidentified officer said,
“We saw you videotaping it.” Officer Evans asked Mr.
Frasier to get his cell phone, but when he retrieved it
from his parked vehicle, another unidentified officer
asserted, “That’s not it.” Mr. Frasier falsely
contended that he had nothing else.
Officer Evans and Sergeant Bothwell approached
Mr. Frasier, and shortly thereafter Detective Bauer
and Officer Robledo did as well. The four officers
initially faced Mr. Frasier from his right, but then
Officer Jones approached and stood behind Mr.
Frasier to his left. Detective Bauer then changed
positions and moved behind Mr. Frasier as well,
which led to Mr. Frasier being “encircled” by the five
officers “for a moment.” The officers “stood in close
proximity to Mr. Frasier,” who said that they
“repeatedly demanded [the tablet computer he had
used to record the video], telling him they ‘needed to

11a
have it’ and that it would be in the ‘best interest of
the Denver Police Department and everyone involved’
for Mr. Frasier to provide the video.” Mr. Frasier
could not identify which officer or officers made these
statements. He vigorously shook his head but
ultimately acquiesced because he believed that it was
“very clear” that if he did not produce his tablet
computer, he was “going to jail.”
Mr. Frasier retrieved his tablet computer and
showed it to Officer Evans. He and Officer Evans
“ducked behind the open hatchback of a nearby
SUV,” where they “were mostly hidden from view.”
Officer Evans grabbed the tablet computer out of Mr.
Frasier’s hands and began to search for the video of
the arrest, asking him where it was. Mr. Frasier told
Officer Evans that he could not search his computer
without a warrant, but Officer Evans held onto it for
thirty to forty-five seconds. While searching through
it, Officer Evans called back over his shoulder, “I
don’t see the video in here. I can’t find it.” An
unidentified officer responded, “As long as there’s no
video, it’s okay.” Officer Evans then handed the
tablet back to Mr. Frasier.
Officer Evans stepped out from behind the SUV
and briefly conferred with Sergeant Bothwell and two
other officers. Officer Evans showed them Mr.
Frasier’s written witness statement, and they
reviewed it. Officer Evans then moved again behind
the SUV where Mr. Frasier had remained. Officer
Evans asked him if he had anything else to say, and
Mr. Frasier asked to leave. The officer then handed
back Mr. Frasier’s driver’s license, thanked him, and
shook his hand. Mr. Frasier then left, approximately

12a
twenty-three minutes after Officer Evans first
approached him.
When Mr. Frasier later tried to locate his video of
the arrest on his tablet computer, he could not find it
and publicly claimed that Officer Evans had deleted
it. The Denver Police Department’s Internal Affairs
Bureau then subjected Mr. Frasier’s tablet computer
to a forensic analysis, which “revealed the video was
still present on the device and had never been
deleted.”
B
On August 14, 2015, Mr. Frasier commenced this
civil action by filing a complaint against Officer
Evans, Officer Jones, Detective Bauer, and Sergeant
Bothwell, as well as the City and County of Denver,
Colorado. He amended his complaint twice, and his
second amended complaint—which now is the
operative complaint—added Officer Robledo as a fifth
individual defendant. Mr. Frasier claimed, as
relevant here, that the individual defendants had
retaliated against him for filming the suspect’s arrest
in violation of the First Amendment, that they had
detained him and searched his tablet computer in
violation of the Fourth Amendment, that they had
conspired to commit the above constitutional
violations, and that the municipality of Denver was
liable for the officers’ First Amendment violations
due to its failure to train them about the public’s
First Amendment rights.
The officers successfully moved the district court
to dismiss Mr. Frasier’s First Amendment claim on
the ground that they all were entitled to qualified
immunity because his right to record them in the

13a
performance of their official duties in public spaces
was not clearly established at the time of their
alleged conduct in August 2014.
The municipality of Denver later moved the
district court for summary judgment on Mr. Frasier’s
First Amendment claim and presented evidence that
the Denver Police Department had been training its
officers since February 2007 that the public has the
right to record them performing their official duties
in public spaces and that each of the officers in this
case had “testified unequivocally that, as of [August
2014], they were aware that members of the public
had the right to record [them].” Aplts.’ App. at 200
(Defs.’ Mot. for Partial Summ. J., filed July 30, 2018).
The district court granted summary judgment to the
municipality, holding that “it is plain the
[municipality] had in place, at the time of the events
giving rise to this lawsuit, an official policy which
clearly affirmed citizens’ First Amendment rights to
record the police in the public discharge of their
official duties.” Id. at 1032 (Order Re: Defs.’ Mot. for
Partial Summ. J., filed Nov. 21, 2018). The court
further held that the record did not support a finding
that the municipality had failed to train its officers
adequately in its official policy. The court noted in
particular that “all the defendant officers in this case
. . . testified they understood at the time of their
encounter with Mr. Frasier that citizens had the
right to record them.” Id. at 1033–34. The court,
having granted summary judgment to the
municipality, dismissed it from the action.
The district court later concluded that it had
erred in granting the officers qualified immunity on
Mr. Frasier’s First Amendment claim. Although the

14a
court still held that the right to record police officers
performing their official duties in public spaces was
not clearly established in August 2014, the court
determined that the record supported a finding that
in August 2014 the officers nonetheless actually
knew, based on their training, that the right existed.
The court reasoned that “[i]f an official can be held
accountable for what he is presumed to know”
because it is clearly established law, “it is neither
illogical nor unfair to hold him accountable for what
he admits he actually knows.” Id. at 1041–42 (Order
Granting Pl.’s Mot. to Reconsider, filed Nov. 21,
2018). The court, moreover, cited Justice Brennan’s
brief concurrence in Harlow v. Fitzgerald, 457 U.S.
800 (1982), for the proposition that although the
qualified-immunity doctrine focuses on the objective
legal reasonableness of an official’s conduct, it does
“not allow the official who actually knows that he was
violating the law to escape liability for his actions,
even if he could not ‘reasonably have been expected’
to know what he actually did know.” Id. at 1041
(quoting Harlow, 457 U.S. at 821 (Brennan, J.,
concurring)). The court, therefore, reconsidered its
dismissal of Mr. Frasier’s First Amendment claim
and reinstated it.
The officers then moved the district court for
summary judgment on Mr. Frasier’s reinstated First
Amendment claim, arguing that they were entitled to
qualified immunity because Mr. Frasier’s First
Amendment right to record them performing their
official duties in public spaces (a right, the existence
of which, they did not challenge) was not clearly
established in August 2014 by judicial precedent. The
district court denied their motion for qualified

15a
immunity, holding that the record supported a
finding that they had retaliated against Mr. Frasier
because of his filming of the suspect’s arrest—which
was a First Amendment protected activity—and that
they were liable for their retaliation because of their
“actual knowledge that Mr. Frasier had a First
Amendment right to record them in the public
execution of their official duties.” Id. at 1128 (Order
Denying Defs.’ Mot. for Summ. J. on Pl.’s First
Amendment Retaliation Claim, filed Jan. 11, 2019).
The officers also moved the district court for
summary judgment on most of Mr. Frasier’s Fourth
Amendment claims. Although they did not pursue
summary judgment on the claim that Officer Evans
had unlawfully searched Mr. Frasier’s tablet
computer, they contended that the record did not
support a finding that the other officers personally
participated in Officer Evans’s alleged search. They
also argued that insofar as they detained Mr. Frasier
after the suspect’s arrest, they were justified in doing
so because they reasonably suspected that he had
violated Colorado Revised Statutes § 18-8-111 by
providing false information to them regarding
whether he had filmed the arrest. Mr. Frasier did not
oppose granting summary judgment on his Fourth
Amendment detention claim to Officer Jones,
Detective Bauer, Sergeant Bothwell, and Officer
Robledo, so the court entered judgment for them on
that claim without discussion. The court then
granted those four officers qualified immunity on Mr.
Frasier’s search-related claim because the record did
not support a finding that they had personally
participated in Officer Evans’s alleged search of the
tablet computer. The court also granted Officer

16a
Evans qualified immunity on Mr. Frasier’s detentionrelated claim, holding that the officer had reasonable
suspicion that Mr. Frasier had violated Colorado
Revised Statutes § 18-8-111 by making false
statements to the police.
Finally, the officers moved the district court for
summary judgment on Mr. Frasier’s conspiracy
claim. They raised “the defense of qualified
immunity” against the claim and asserted the record
was “devoid of evidence to demonstrate that [a
conspiracy existed].” Id. at 217. The district court
granted the officers summary judgment on the claim
insofar as it was predicated on the notion that they
had illegally detained Mr. Frasier because the court
had found “no Fourth Amendment violation with
respect to the putative seizure of Mr. Frasier.” Id. at
1028.
The court decided, however, that there were
“genuine disputes of material fact as to whether the
officer defendants came to an agreement which
ultimately led to Officer Evans’s alleged illegal
search of the tablet [computer].” Id. at 1029. The
court held that “Mr. Frasier’s testimony,” when
“coupled with” the officers’ “presen[ce]” at the “heated
discussion . . . , after which Mr. Frasier conceded to
the[ir] demands,” “could support a reasonable
conclusion that together, the officer defendants
agreed . . . to force Mr. Frasier to submit the tablet
[computer] to a search.” Id. The court further held
that it was “not fatal to [his conspiracy] claim that
Mr. Frasier cannot identify which officer said what to
him” during the “heated discussion.” Id. The court,
thus, denied summary judgment to the officers
insofar as the claim referred to a conspiracy to

17a
unlawfully search the tablet computer—apparently
construing such a conspiracy as violating both his
First Amendment right to be free from retaliation for
protected speech and his Fourth Amendment right to
be free from an unreasonable search.
The officers timely filed a notice of interlocutory
appeal from the district court’s orders partially
denying their qualified-immunity defense. We now
reverse.
II
We begin by reviewing the district court’s denial
of qualified immunity to the officers on Mr. Frasier’s
First Amendment retaliation claim. The court held
that, although Mr. Frasier’s alleged right to record
the officers performing their official duties in public
spaces was not clearly established at the time of the
underlying events in August 2014, the officers
nevertheless were not entitled to qualified immunity
because the record supported a finding that the
officers actually knew from their training that the
right existed. Id. at 1039–44, 1128. “[W]e review the
district court’s denial of a summary judgment motion
asserting qualified immunity de novo.” Sawyers, 962
F.3d at 1282 (quoting Fancher v. Barrientos, 723
F.3d 1191, 1199 (10th Cir. 2013)); accord Corona v.
Aguilar, 959 F.3d 1278, 1282 (10th Cir. 2020); Halley,
902 F.3d at 1143.
A
“Qualified immunity attaches when an official’s
conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” City of Escondido v. Emmons,

18a
___ - U.S. ___, 139 S. Ct. 500, 503 (2019) (per curiam)
(quoting Kisela v. Hughes, 584 U.S. ___, 138 S. Ct.
1148, 1152 (2018) (per curiam)); accord Cox v. Wilson,
971 F.3d 1159, 1171 (10th Cir. 2020). “A Government
official’s conduct violates clearly established law
when, at the time of the challenged conduct, ‘[t]he
contours of [a] right [are] sufficiently clear’ that every
‘reasonable official would [have understood] that
what he is doing violates that right.’” Ashcroft v. alKidd, 563 U.S. 731, 741 (2011) (alterations in
original) (emphasis added) (quoting Anderson v.
Creighton, 483 U.S. 635, 640 (1987)); accord Dist. of
Columbia v. Wesby, ___ U.S. ___, 138 S. Ct. 577, 589
(2018); Cox, 971 F.3d at 1171; see also Brosseau v.
Haugen, 543 U.S. 194, 198 (2004) (per curiam)
(“Because the focus is on whether the officer had fair
notice that her conduct was unlawful, reasonableness
is judged against the backdrop of the law at the time
of the conduct. If the law at that time did not clearly
establish that the officer’s conduct would violate the
Constitution, the officer should not be subject to
liability or, indeed, even the burdens of litigation.”).
Ordinarily, “[t]o make such a showing [of clearly
established law] in our circuit, ‘the plaintiff must
point to a Supreme Court or Tenth Circuit decision
on point, or the clearly established weight of
authority from other courts must have found the law
to be as the plaintiff maintains.’” Cox, 971 F.3d at
1171 (quoting Callahan v. Unified Gov’t of Wyandotte
Cnty., 806 F.3d 1022, 1027 (10th Cir. 2015)); accord
Singh v. Cordle, 936 F.3d 1022, 1033–34 (10th Cir.
2019). Typically, the precedent must have clearly
established the right “in light of the specific context
of the case, not as a broad general proposition.”

19a

Mullenix v. Luna, __ U.S. __, 136 S. Ct. 305, 308
(2015) (per curiam) (quoting Brosseau, 543 U.S. at
198); accord Cox, 971 F.3d at 1171; see also White v.
Pauly, ___ U.S.___, 137 S. Ct. 548, 552 (2017) (noting

that the Supreme Court has repeatedly highlighted
“the longstanding principle that ‘clearly established
law’ should not be defined ‘at a high level of
generality’” (quoting a1-Kidd, 563 U.S. at 742)).
That said, “[w]e do not require a case directly on
point, but existing precedent [nonetheless] must have
placed the statutory or constitutional question
beyond debate.” al-Kidd, 563 U.S. at 741; see
Anderson, 483 U.S. at 640 (“This is not to say that an
official action is protected by qualified immunity
unless the very action in question has previously
been held unlawful, . . . but it is to say that in the
light of pre-existing law the unlawfulness must be
apparent.” (citations omitted)). In this regard, the
Supreme Court has reminded us recently that under
certain
“extreme
circumstances”
general
constitutional principles established in the caselaw
may give reasonable government officials fair
warning that their conduct is constitutionally or
statutorily unlawful. See Taylor v. Riojas, ___ U.S.
___, 141 S. Ct. 52, 53 (2020) (per curiam) (citing Hope
v. Pelzer, 536 U.S. 730, 741 (2002)).
B
The officer defendants challenge the district
court’s denial of their qualified-immunity defense
with respect to Mr. Frasier’s First Amendment
retaliation claim. They contend that the court should
have granted them immunity once it held that
judicial precedent did not clearly establish in August

20a
2014 Mr. Frasier’s alleged First Amendment right to
record them performing their official duties in public
spaces. We agree.
More specifically, the district court erred in
concluding that the officers were not entitled to
qualified immunity because they actually knew from
their training that such a First Amendment right
purportedly existed—even though the court had
determined that they did not violate any clearly
established right. There are two salient, independent
grounds for concluding that the district court’s ruling
was wrong. First, and perhaps most significantly, a
defendant’s eligibility for qualified immunity is
judged by an objective standard and, therefore, what
the officer defendants subjectively understood or
believed the law to be was irrelevant with respect to
the clearly-established-law question. Second, judicial
decisions are the only valid interpretive source of the
content of clearly established law, and, consequently,
whatever training the officers received concerning
the nature of Mr. Frasier’s First Amendment rights
was irrelevant to the clearly-established-law inquiry.
As to the first point, we long ago explained in

Pueblo Neighborhood Health Centers, Inc. v. Losavio,

847 F.2d 642 (10th Cir. 1988), the standard for
qualified immunity is wholly objective:
An assertion of qualified immunity is
properly evaluated under the standard
enunciated by the Supreme Court in Harlow
v. Fitzgerald . . . . Before Harlow, qualified
immunity contained both an objective and a
subjective component. Because of its
subjective component, qualified immunity

21a
was
often
ineffective
in
resolving
insubstantial suits against government
officials before trial. In an attempt to balance
the need to preserve an avenue for
vindication of constitutional rights with the
desire to shield public officials from undue
interference in the performance of their
duties as a result of baseless claims, the
Court adopted an objective test to determine
whether the doctrine of qualified immunity
applies. When government officials are
performing discretionary functions, they will
not be held liable for their conduct unless
their actions violate “clearly established
statutory or constitutional rights of which a
reasonable person would have known.”

Id. at 645 (citations omitted) (quoting Harlow, 457
U.S. at 818); see also Mitchell v. Forsyth, 472 U.S.
511, 517, 524 (1985) (stating that in Harlow the

Supreme Court “purged qualified immunity doctrine
of its subjective components” and that under Harlow
an official is “entitled to immunity so long as his
actions do not violate ‘clearly established statutory or
constitutional rights of which a reasonable person
would have known’” (quoting Harlow, 457 U.S. at
818)); Breidenbach v. Bolish, 126 F.3d 1288, 1292
(10th Cir. 1997) (“When the Supreme Court
reformulated its qualified immunity test in Harlow to
focus on the ‘objective reasonableness’ of an officer’s
actions as opposed to his or her subjective intent, the
Court sought to shield government officials not only
from the ‘substantial costs’ of subjecting officials to
the risks of trial, but also from ‘[j]udicial inquiry into
subjective motivation,’ including ‘broad-ranging

22a
discovery and the deposing of numerous persons.’”
(quoting Harlow, 457 U.S. at 816)).
As the Supreme Court observed in Harlow itself,
its qualified-immunity test focuses “on the objective
reasonableness of an official’s conduct, as measured
by reference to clearly established law, [to] avoid
excessive disruption of government and [to] permit
the resolution of many insubstantial claims on
summary judgment.” 457 U.S. at 818. The Court
further observed that “[i]f the law at th[e] time [the
official acted] was not clearly established, [he] could
not reasonably . . . be said to ‘know’ that the law
forbade [his] conduct.” Id.
Moreover, the Court subsequently clarified in
Anderson that, whether an official is entitled to
qualified immunity under the Harlow standard does
not turn on whether he “subjective[ly] belie[ved]” his
conduct was lawful, but, rather, on whether “he
could, as a matter of law, reasonably have believed
that [his conduct] was lawful . . . in light of the
clearly established principles governing [it].”
Anderson, 483 U.S. at 641; accord Grant v. City of
Pittsburgh, 98 F.3d 116, 123 (3d Cir. 1996) (“Harlow
teaches that whether the [defendant officers] in fact
knew
that
they
were
violating
plaintiffs’
constitutional rights is simply irrelevant to [the
qualified-immunity] analysis.”); id. at 123–24 (“It is
now widely understood that a public official who
knows he or she is violating the constitution
nevertheless will be shielded by qualified immunity if
a ‘reasonable public official’ would not have known
that his or her actions violated clearly established
law.”). Thus, as Anderson makes clear, under
Harlow, an officer’s “subjective beliefs about [whether

23a
his conduct was lawful] are irrelevant.” Anderson,
483 U.S. at 641.
As applied here, it is therefore “irrelevant”
whether each officer defendant actually believed—or
even in some sense knew—that his conduct violated a
statutory or constitutional right—more specifically,
the First Amendment. Id.; accord Bruning v. Pixler,
949 F.2d 352, 356 (10th Cir. 1991) (stating that,
before Harlow it was relevant to qualified immunity
“if [a defendant] did not actually know his conduct
was unconstitutional,” and that “Harlow eliminated
any consideration of the defendant’s intent as it
relates to his knowledge of the law” (citing Halperin
v. Kissinger, 807 F.2d 180, 186 (D.C. Cir. 1986) (per
Scalia, J.)); see also Halperin, 807 F.2d at 186 (“It is
clear from the Court’s [Harlow] opinion that the
qualified immunity defense is not to be denied
because the defendant official in fact knew (even
though most people would not) that his action was
categorically unlawful . . . .”). The district court
therefore erred in denying the officer defendants
qualified immunity regarding Mr. Frasier’s First
Amendment retaliation claim based on their
subjective knowledge of Mr. Frasier’s purported First
Amendment right to record them on the public street
performing their duties.
Mr. Frasier contends nonetheless that the district
court was right to deny the officers their defense
because qualified immunity does not protect those
who “knowingly violate the law.” Aplee.’s Resp. Br. at
29 (quoting Malley v. Briggs, 475 U.S. 335, 341
(1986)); see also id. at 30 (“This is a straightforward,
albeit rare, case in which Defendants are not entitled
to qualified immunity because they knew what the

24a
law required.”). He further contends that we and
other circuits have recognized that an officer does not
warrant immunity under Harlow when he actually
knew that he was violating the law, irrespective of
whether the law was clearly established at the time.
Id. at 32. Like the district court, Mr. Frasier locates
the origin of this somewhat novel interpretation of
Harlow in Justice Brennan’s concurrence in that
case. Id. at 34 (“[The Harlow] standard would not
allow the official who actually knows that he was
violating the law to escape liability for his actions,
even if he could not ‘reasonably have been expected’
to know what he actually did know.” (quoting
Harlow, 457 U.S. at 821 (Brennan, J., concurring))).
We, however, reject the idea that Harlow permits
an exception to its objective standard based on an
official’s subjective understanding or knowledge of
the law. We note that “a concurring opinion is not
binding on us”—even one from a Supreme Court
Justice—and, therefore, such an opinion is relevant
only insofar as its analysis is “persuasive.” United
States v. Garcia, 877 F.3d 944, 950 n.4 (10th Cir.
2017); see United States v. Thompson, 866 F.3d 1149,
1159 (10th Cir. 2017) (declining to follow a
concurrence in a Supreme Court case because it was
“not the opinion of the Court”), vacated on other
grounds, 138 S. Ct. 2706 (2018). And Justice
Brennan’s concurrence is not a persuasive reading of
the scope of Harlow’s holding. See Anderson, 483 U.S.
at 641; see also Grant, 98 F.3d at 123 (“Harlow
teaches that whether the [officers] in fact knew that
they were violating plaintiffs’ constitutional rights is
simply irrelevant to [its qualified-immunity]
analysis.”); Halperin, 807 F.2d at 186 (“It is clear

25a
from the Court’s [Harlow] opinion that the qualified
immunity defense is not to be denied because the
defendant official in fact knew (even though most
people would not) that his action was categorically
unlawful . . . .”).
Mr. Frasier tells us that we—as well as other
federal courts of appeals—have already adopted
Justice Brennan’s Harlow concurrence. In this
connection, he particularly cites to Pleasant v. Lovell,
876 F.2d 787 (10th Cir. 1989), asserting that we
“specifically stated [in that case] that a ‘government
official who actually knows that he is violating the
law is not entitled to qualified immunity even if [his]
actions [are] objectively reasonable.’” Aplee.’s Resp.
Br. at 31–32 (second and third alterations in original)
(quoting Pleasant, 876 F.2d at 798).
Although Mr. Frasier is correct that we used that
language in Pleasant, he neglects to mention that it
only appears in a parenthetical purporting to
describe the holding of Justice Brennan’s Harlow
concurrence. See Pleasant, 876 F.3d at 798. And
Pleasant’s reference to Justice Brennan’s Harlow
concurrence only appears in a brief aside that can
only be read as dictum. That is because the panel
already had announced its determinative conclusion
that the defendants were not entitled to qualified
immunity assessing their conduct through Harlow’s
objective prism.2 See id. Therefore, Mr. Frasier’s
reliance on Pleasant is misguided.
The contested issue in Pleasant was whether three
officials were entitled to qualified immunity for their conduct in
using an organization’s clerk to help them inspect and acquire
copies of the organization’s materials without a warrant. See
2

26a
Furthermore, we also decline to follow the out-ofcircuit caselaw that Mr. Frasier offers to us.
Irrespective of whether he has accurately cited those
decisions as supporting his argument that an official
cannot receive qualified immunity when he actually
knows he violated the law, we do not believe that

876 F.3d at 790–92, 796. We reasoned that “[t]he variety of the
information obtained on this fishing expedition, the degree of
supervision by the defendants, and the sheer number of contacts
between [the clerk] and [the] defendants . . . belie the notion
that [the clerk] merely was acting as a responsible citizen,” as
opposed to a government agent. Id.; see also id. at 795–96
(holding that it was “clearly established law [at the time of the
underlying conduct] that the fourth amendment proscribed
unreasonable searches and seizures by government agents”).
And we thus held that the officials were not eligible for
immunity because reasonable officials “could [not] have believed
that their receipt of documents from [the organization’s clerk]
was lawful” under the Fourth Amendment. Id. at 798. After
announcing this determinative holding, applying an objective
lens, we noted as an aside (in a sentence introduced by the
modifier, “[m]oreover”) that a taped conversation in the record
supported a finding that “the defendants actually knew that
[the clerk] was acting as a government agent.” Id. at 798. We
cannot read this stray sentence as anything more than dictum.
The Pleasant panel already had concluded that the defendants
were not entitled to qualified immunity when the conduct was
viewed through Harlow’s objective prism. There was nothing
more essential to say on this subject. See, e.g., Cent. Green Co.
v. United States, 531 U.S. 425, 431 (2001) (stating that a
“sentence was unquestionably dictum because it was not
essential to our disposition of any of the issues [in the case]”).
Accordingly, we are free to—and do—eschew Pleasant’s dictum
here. See United States v. Finnesy, 953 F.3d 675, 700 (10th Cir.
2020) (noting we are “not bound by a prior panel’s dicta”
(quoting Bates v. Dep’t of Corr., 81 F.3d 1008, 1011 (10th Cir.
1996))); accord United States v. Titties, 852 F.3d 1257, 1273
(10th Cir. 2017).

27a
those cases can cast any doubt on our baseline
conclusion—firmly grounded in Supreme Court
precedent—that qualified immunity “attaches when
an official’s conduct does not violate clearly
established statutory or constitutional rights of which
a reasonable person would have known.” City of
Escondido, 139 S. Ct. at 503 (emphasis added)
(quoting Kisela, 138 S. Ct. at 1152); see Anderson,
483 U.S. at 641; see also Allstate Sweeping, LLC v.
Black, 706 F.3d 1261, 1266 (10th Cir. 2013) (“Under
the qualified-immunity doctrine a public officer . . . is
subject to liability only for violating a federal
constitutional or statutory right that was clearly
established at the time of the violation.”).3

We note that virtually all of the out-of-circuit cases that
Mr. Frasier cites are from the early- to mid-1980s—i.e., the
years immediately following the Supreme Court’s 1982 Harlow
ruling, which, departing from the well-trodden path, “purged
qualified immunity doctrine of its subjective components.”
Mitchell, 472 U.S. at 517. The only case he cites that is not from
the 1980s is an unpublished decision from 1991. Aplee.’s Resp.
Br. at 32 (citing Russo v. Massullo, Nos. 90-3240 & 90-3241,
1991 WL 27420, at *7 (6th Cir. Mar. 5, 1991) (unpublished) (per
curiam)). We find it telling that Mr. Frasier can find no more
recent decision to support his interpretation of Harlow. As the
Third Circuit observed back in 1996, “It is now widely
understood that a public official who knows he or she is
violating the constitution nevertheless will be shielded by
qualified immunity if a ‘reasonable public official’ would not
have known his or her actions violated clearly established law.”
Grant, 98 F.3d at 123–24; see Bruning, 949 F.2d at 356 (stating
that, before Harlow, it was relevant “if [a defendant] did not
actually know his conduct was unconstitutional” and that
“Harlow eliminated any consideration of the defendant’s intent
as it relates to his knowledge of the law”).
3

28a
As for the second point, the district court was
wrong to deny the officers qualified immunity based
on their knowledge of Mr. Frasier’s purported First
Amendment rights that they gained from their
training. Judicial decisions are the only valid
interpretive source of the content of clearly
established law; whatever training the officers
received concerning the First Amendment was
irrelevant to the clearly-established-law inquiry. See
Wesby, 138 S. Ct. at 589 (“To be clearly established, a
legal principle must have a sufficiently clear
foundation in then-existing precedent.” (emphasis
added)); accord Ullery v. Bradley, 949 F.3d 1282,
1291 (10th Cir. 2020); Est. of Ceballos v. Husk, 919
F.3d 1204, 1218 (10th Cir. 2019); see also United
States v. Nixon, 418 U.S. 683, 703 (1974) (stating
that “each branch of the Government must initially
interpret the Constitution, and [each branch’s]
interpretation . . . is due great respect,” but it is
“‘emphatically the province and duty of the judicial
department to say what the law is’” (quoting Marbury
v. Madison, 5 U.S. (1 Cranch) 137, 177 (1803))); cf.
NLRB v. Noel Canning, 573 U.S. 513, 525 (2014)
(noting that “it is the ‘duty of the judicial
department’—in a separation-of-powers case as in
any other—‘to say what the law is,’ . . . . [b]ut it is
equally true that the longstanding ‘practice of the
government,’ can inform our determination of ‘what
the law is’” (quoting Marbury, 5 U.S. at 177, then
McCulloch v. Maryland, [17] U.S. (4 Wheat.) 316, 401
(1819)). Indeed, it is beyond peradventure that
judicial decisions concretely and authoritatively
define the boundaries of permissible conduct in a way
that government-employer training never can. Thus,
irrespective of the merits of the training that the

29a
officer defendants received concerning the First
Amendment, it was irrelevant to the clearlyestablished-law inquiry here. The district court
consequently erred in denying the officers qualified
immunity based on the actual knowledge that they
purportedly gained from such non-judicial sources.
In conclusion, we hold that the district court
applied an erroneous rationale in denying the officer
defendants qualified immunity on Mr. Frasier’s First
Amendment retaliation claim. If the officers did not
violate Mr. Frasier’s clearly established First
Amendment rights—and the district court itself said
they did not—then the officers are entitled to
qualified immunity. This is so, even if the officers
subjectively knew—based on their training or from
municipal policies—that their conduct violated Mr.
Frasier’s First Amendment rights.
C
Mr. Frasier contends that we should nevertheless
affirm the district court’s judgment denying qualified
immunity to the officers on the alternative ground
that his First Amendment right to record the officers
performing their official duties in public spaces was
actually clearly established in August 2014, even
though the district court ruled to the contrary. An
appellee “is generally permitted to defend the
judgment won below on any ground supported by the
record without filing a cross appeal.” Brecek & Young
Advisors, Inc. v. Lloyds of London Syndicate 2003,
715 F.3d 1231, 1240 (10th Cir. 2013) (quoting
Wyoming v. USDA, 661 F.3d 1209, 1254 n.33 (10th
Cir. 2011)). He may do so even if, as here, his
argument involves “an attack upon the reasoning of

30a
the lower court.” Jennings v. Stephens, 574 U.S. 271,
276 (2015) (quoting United States v. Am. Ry. Express
Co., 265 U.S. 425, 435 (1924)). Not surprisingly, the
officers argue to the contrary: specifically, that Mr.
Frasier’s purported First Amendment right to record
them was not clearly established in August 2014,
and, therefore, Mr. Frasier cannot defeat their claim
to qualified immunity. We agree with the officers.4
We do not consider, nor opine on, whether Mr. Frasier
actually had a First Amendment right to record the police
performing their official duties in public spaces. See Cox, 971
F.3d at 1171 (observing in a qualified-immunity case that we
have discretion to bypass whether the defendant violated a right
and to resolve the case instead on the ground that “the plaintiff
fail[ed] to show [the] right was clearly established” (quoting
Gutierrez v. Cobos, 841 F.3d 895, 900 (10th Cir. 2016))); accord
Culver v. Armstrong, 832 F.3d 1213, 1217 (10th Cir. 2016). We
exercise our discretion to bypass the constitutional question of
whether such right even exists. In doing so, we are influenced
by the fact that neither party disputed that such a right exists
(nor did the district court question its existence). See, e.g.,
Aplts.’ App. at 174 (Order Re: Objs. to Recommendation, filed
Sept. 28, 2017) (“Defendants do not object to the magistrate
judge’s determination that there exists a First Amendment right
to record the police performing their official duties in a public
forum . . . .”). Yet, our “adversarial system of justice . . . . is
premised on the well-tested principle that truth . . . is ‘best
discovered by powerful statements on both sides of the
question.’” Penson v. Ohio, 488 U.S. 75, 84 (1988) (quoting
Irving Kaufman, Does the Judge Have a Right to Qualified
Counsel?, 61 A.B.A. J. 569, 569 (1975)); see Kaley v. United
States, 571 U.S. 320, 338 (2014) (recognizing the “generally
sound premise” that “the adversarial process leads to better,
more accurate decision-making”). And because we ultimately
determine that any First Amendment right that Mr. Frasier had
to record the officers was not clearly established at the time he
did so, we see no reason to risk the possibility of “glibly
announc[ing] new constitutional rights in dictum that will have
4

31a
“Whether a constitutional right is clearly
established is a question of law which we review de
novo.” Pyle v. Woods, 874 F.3d 1257, 1263 (10th Cir.
2017). “A defendant’s motion for summary judgment
based on qualified immunity imposes on the plaintiff
‘the burden of showing . . . that the constitutional
right [the defendant allegedly violated] was clearly
established at the time of the violation.’” Burke v.
Regalado, 935 F.3d 960, 1002 (10th Cir. 2019)
(quoting Felders ex rel. Smedley v. Malcom, 755 F.3d
870, 877 (10th Cir. 2014)). We “apply[] the same
standard as the district court.” Storey v. Taylor, 696
F.3d 987, 992 (10th Cir. 2012).
Mr. Frasier does not assert that any on-point
Tenth Circuit authority provided clearly established
law in August 2014 concerning his First Amendment
retaliation claim, and we are not aware of any. Yet,
Mr. Frasier argues that his right to record the police
performing their official duties in public spaces was
clearly established by two “general constitutional
rule[s] already identified in the decisional law.”
Aplee.’s Resp. Br. at 38 (quoting Hope, 536 U.S. at
741). He points in particular to two principles: (1)
“the creation and dissemination of information are
speech within the meaning of the First Amendment,”
and (2) “[n]ews gathering is an activity protected by
the First Amendment.” Id. at 39 (first quoting Sorrell
v. IMS Health Inc., 564 U.S. 552, 570 (2011), then
Journal Publ’g Co. v. Mechem, 801 F.2d 1233, 1236
no effect whatsoever on the case.” Pierre N. Leval, Judging
Under the Constitution: Dicta About Dicta, 81 N.Y.U. L. REV.
1249, 1277 (2006). We nonetheless thank amici for their helpful
briefing on the issue of whether the right exists.

32a
(10th Cir. 1986)); see also id. at 43 (maintaining that
because “[t]he general constitutional rule protecting
speech creation and newsgathering applied with
obvious clarity to Plaintiff,” such that “[e]very
reasonable official in Defendants’ position in 2014
would have understood that harassing and
retaliating against Plaintiff for recording them
arresting [the suspect] violated Plaintiff’s First
Amendment rights”). We find unpersuasive, however,
Mr. Frasier’s effort to show that these general
principles clearly established a First Amendment
right applicable to these circumstances, which
involve the recording of police officers performing
their official duties in public spaces.
The Supreme Court has “repeatedly stressed that
courts must not ‘define clearly established law at a
high level of generality, since doing so avoids the
crucial question [of] whether the official acted
reasonably in the particular circumstances that he or
she faced.’” Wesby, 138 S. Ct. at 590 (emphasis
added) (quoting Plumhoff v. Rickard, 572 U.S. 765,
779 (2014)); see also Apodaca v. Raemisch, 864 F.3d
1071, 1076 (10th Cir. 2017) (“This [controlling]
precedent cannot define the right at a high level of
generality. Rather, the precedent must be
particularized to the facts.” (citation omitted)). “A
rule is too general if the unlawfulness of the officer’s
conduct ‘does not follow immediately from the
conclusion that [the rule] was firmly established.’” Id.
(alteration in original) (quoting Anderson, 483 U.S. at
641); see also White, 137 S. Ct. at 552 (explaining it
is a “longstanding principle that ‘clearly established
law’ should not be defined ‘at a high level of
generality’” but must instead “be ‘particularized’ to

33a
the facts of the case” to prevent turning “the rule of
qualified immunity . . . into a rule of virtually
unqualified liability simply by alleging violation of
extremely abstract rights” (omission in original) (first
quoting al-Kidd, 563 U.S. at 742, then Anderson, 483
U.S. at 639)). “It is not enough that the rule is
suggested by then-existing precedent. The precedent
must be clear enough that every reasonable official
would interpret it to establish the particular rule the
plaintiff seeks to apply.” Wesby, 138 S. Ct. at 590
(emphasis added); see also Hope, 536 U.S. at 731
(noting that “the salient question . . . is whether the
state of the law . . . gave [the defendants] fair
warning that [their] alleged treatment of [the
plaintiff] was unconstitutional”).
Mr. Frasier’s attempt to distill a clearly
established right applicable here from the general
First Amendment principles protecting the creation
of speech and the gathering of news runs headfirst
into the Supreme Court’s prohibition against defining
clearly established rights at a high level of generality.
Mr. Frasier fails to demonstrate how the alleged
unlawfulness of the officers’ conduct in retaliating
against him for recording them “follow[s]
immediately from” the abstract right to create speech
and gather news. See Wesby, 138 S. Ct. at 590
(quoting Anderson, 483 U.S. at 641).
Furthermore, to the extent that Mr. Frasier
relatedly asserts—referencing Hope v. Pelzer and its
progeny—that these general constitutional principles
apply to these facts “with obvious clarity,” 536 U.S. at
741, such that reasonable officers in the defendants’
positions would have known that their conduct was
unlawful, his suggestion falls far from the mark.

34a
That is because Hope’s holding historically has been
applied to only the “rare ‘obvious case,’” Wesby, 138
S. Ct. at 590 (quoting Brosseau, 543 U.S. at 199),
involving “extreme circumstances,” Taylor, 141 S. Ct.
at 53, or “particularly egregious” misconduct, id. at
53. See Ullery, 949 F.3d at 1291 (“[W]hen a public
official’s conduct is so egregious even a general
precedent applies with ‘obvious clarity,’ the right can
be clearly established notwithstanding the absence of
binding authority involving materially similar facts.”
(quoting Lowe v. Raemisch, 864 F.3d 1205, 1210
(10th Cir. 2017))).
Even a cursory consideration of these facts—in
the light of cases like Taylor and Hope—makes clear
that this is not such a rare case. Compare also A.N.
ex rel. Ponder v. Syling, 928 F.3d 1191, 1198 (10th
Cir. 2019) (“We agree with the district court that the
clearly established rule prohibiting intentional,
arbitrary and unequal treatment of similarly situated
individuals under the law applies with obvious clarity
to Defendants’ alleged actions and policy of
discriminating between A.N. and other sixteen- and
seventeen-year-old juvenile arrestees and younger
juvenile arrestees in complying with New Mexico’s
laws prohibiting the public disclosure of juvenile
arrest and delinquency information.”), with Doe v.
Woodard, 912 F.3d 1278, 1299 (10th Cir. 2019)
(rejecting plaintiffs’ argument, based in part on
Hope’s holding, that “this is the rare alleged violation
of minimal Fourth Amendment standards that is so
‘obvious’ that a factually similar case is unnecessary
for the clearly established law standard”). Indeed, the
Fifth Circuit, for example, has already rejected the
argument that one can derive the right to “video

35a
record[] the police” from “general First Amendment
principles.” Turner v. Driver, 848 F.3d 678, 686 (5th
Cir. 2017). Thus, we cannot conclude that such
general First Amendment principles protecting the
creation of speech and the gathering of news could
provide clearly established law under these
particular factual circumstances—that is, these
principles would not have put the unconstitutionality
of the officers’ allegedly retaliatory conduct “beyond
debate.” Kisela, 138 S. Ct. at 1152 (quoting White,
137 S. Ct. at 551); accord Apodaca, 864 F.3d at 1076.
Mr. Frasier argues next that even if “the wellestablished First Amendment protection provided to
speech creation and newsgathering were too general
to apply with obvious clarity to Defendants’ conduct,
the weight of authority from other Circuits clearly
established [his] First Amendment right to record the
Defendants.” Aplee.’s Resp. Br. at 43–44. He directs
our attention in particular to four pre-August 2014
circuit court decisions: ACLU of Illinois v. Alvarez,
679 F.3d 583 (7th Cir. 2012); Glik v. Cunniffe, 655
F.3d 78 (1st Cir. 2011); Smith v. City of Cumming,
212 F.3d 1332 (11th Cir. 2000); and Fordyce v. City of
Seattle, 55 F.3d 436 (9th Cir. 1995).
Even if we assume that all four decisions—i.e.,
Alvarez, Glik, Smith, and Fordyce—clearly stand for
the proposition that there is a First Amendment right
to record the police performing their duties in public
spaces,5 those decisions do not indicate that this right
Though Alvarez, Smith, and Fordyce all involved First
Amendment § 1983 claims arising from the recording of law
enforcement conduct in public spaces, none of them, for various
reasons, opined on the question of whether the alleged First
5

36a
was clearly established law in our circuit in August
2014. “If judges [] disagree on a constitutional
question, it is unfair to subject police to money
damages for picking the losing side of the
controversy.” Wilson v. Layne, 526 U.S. 603, 618
(1999). And circuit judges have disagreed regarding
whether this purported First Amendment right to
record was clearly established around August 2014.
Cf. Alvarez, 679 F.3d at 601 & n.10 (describing in
2012 a “circuit split” on whether “the right to record
the police was clearly established”). Compare Glik,
655 F.3d at 83, 85 (holding that “even if these cases
[two out-of-circuit court of appeals decisions, one
unpublished per curiam and one published] were to
establish a circuit split,” the law was “clearly
established” in the First Circuit by October 2007 that
“the First Amendment protects the filming of
government officials in public spaces”), with Fields v.
City of Philadelphia, 862 F.3d 353, 362 (3d Cir. 2017)
(“[W]e cannot say that the state of the law at the time
of our cases (2012 and 2013) gave fair warning so
that every reasonable officer knew that, absent some
sort of expressive intent, recording public police
activity was constitutionally protected.”), Turner, 848
F.3d at 687 (“In light of the absence of controlling
authority and the dearth of even persuasive
authority, there was no clearly established First
Amendment right to record the police at the time of
[the plaintiff’s] activities” in September 2015), and
Kelly v. Borough of Carlisle, 622 F.3d 248, 261–62
(3d Cir. 2010) (observing that Fordyce recognized “a
Amendment right at issue was clearly established law. See
Alvarez, 679 F.3d at 601 & n.10; Smith, 212 F.3d at 1333;
Fordyce, 55 F.3d at 439.

37a
general right to record matters of public concern . . . .
only in passing,” and “conclud[ing] there was
insufficient case law establishing a right to videotape
police officers during a traffic stop to put a
reasonably competent officer on ‘fair notice’ [in May
2007] that seizing a camera or arresting an
individual for videotaping police during the stop
would violate the First Amendment”).6
In other words, the out-of-circuit authorities
appear to be split on the clearly-established-law
question. And, in the teeth of this circuit split, we
could not reasonably conclude that the “clearly
established weight of authority from other courts”
has “found the law to be as [Mr. Frasier] maintains.’”
Cox, 971 F.3d at 1171 (quoting Callahan, 806 F.3d at
1027); see Mocek v. City of Albuquerque, 813 F.3d
912, 929 n.9 (10th Cir. 2015) (“A circuit split will not
satisfy the clearly established prong of qualified
immunity.”); accord Lincoln v. Maketa, 880 F.3d 533,
539 (10th Cir. 2018) (indicating that the contention
that the law was clearly established was undermined
by the fact that the views of out-of-circuit authorities
concerning the point of law were “not universal”).
Furthermore, “an unpublished opinion can be quite
relevant in showing that the law was not clearly established.”
Grissom v. Roberts, 902 F.3d 1162, 1168 (10th Cir. 2018); accord
Ullery, 949 F.3d at 1294. And, in a roughly analogous context,
we have drawn attention to our unpublished decision in
McCormick v. City of Lawrence, 130 F. App’x 987, 988–89 (10th
Cir. 2005) (unpublished)—which addressed related conduct
occurring in 2002—and held that “it was not clearly established
that police violated the First Amendment by destroying
recordings of police activity at roadside sobriety checkpoints.”
Mocek v. City of Albuquerque, 813 F.3d 912, 930 (10th Cir.
2015).
6

38a
And, more specifically, the out-of-circuit authorities
that Mr. Frasier cites do not convince us that, in
August 2014, reasonable officers in the positions of
the officer defendants here would have had “fair
notice that [their] conduct was unlawful.” Brosseau,
543 U.S. at 198; accord Hope, 536 U.S. at 741.
***
In conclusion, we hold that the district court
erred in denying the officers qualified immunity with
respect to Mr. Frasier’s First Amendment retaliation
claim. Irrespective of whether the officers
subjectively knew from their training that Mr.
Frasier possessed a First Amendment right to record
them performing their official duties in public spaces,
this right (which we assume to exist) was not clearly
established law in August 2014 when they allegedly
retaliated against Mr. Frasier for recording them.
Accordingly, Mr. Frasier has not shouldered his
burden on the second prong of the qualifiedimmunity standard (the clearly-established-law
prong), and the officers are therefore entitled to
judgment in their favor on this claim.
III
Finally, we consider the officers’ challenge to the
district court’s denial of qualified immunity to them
on Mr. Frasier’s conspiracy claim. Because we have
concluded that the officers are entitled to qualified
immunity on Mr. Frasier’s First Amendment
retaliation claim based on the absence of clearly
established law, it necessarily follows that they also
are entitled to qualified immunity on his conspiracy
claim insofar as it alleges a conspiracy to retaliate
against him in violation of the same First

39a
Amendment right. Stated otherwise, because the law
was not clearly established in August 2014 that it
was unlawful under the First Amendment to
retaliate against Mr. Frasier for recording the officers
carrying out their official duties in public spaces, it
ineluctably follows that the law was not clearly
established that it was unlawful to conspire to
engage in the same retaliation.
More specifically, there was no clearly
established law that the alleged object of the officers’
conspiracy was actually unconstitutional under the
First Amendment, and, consequently, the officers are
entitled to qualified immunity for any such
conspiracy. See Snell v. Tunnell, 920 F.2d 673, 702
(10th Cir. 1990) (providing that an actionable
conspiracy under § 1983 must involve an unlawful
scheme or plan); cf. Hinkle v. Beckham Cnty. Bd. of
Cnty. Comm’rs, 962 F.3d 1204, 1231 (10th Cir. 2020)
(“For a valid § 1983 conspiracy claim, plaintiffs ‘must
plead and prove not only a conspiracy, but also an
actual deprivation of rights; pleading and proof of one
without the other will be insufficient.’” (quoting Snell,
920 F.2d at 701)); see also Grider v. City of Auburn,
618 F.3d 1240, 1260 (11th Cir. 2010) (“A plaintiff may
state a § 1983 claim for conspiracy to violate
constitutional rights by showing a conspiracy existed
that resulted in the actual denial of some underlying
constitutional right.”); accord Mitchell v. City of
Moore, 218 F.3d 1190, 1198 (10th Cir. 2000).
Thus, the only aspect of Mr. Frasier’s § 1983 civilconspiracy claim that remains is the officers’ alleged
conspiracy to unlawfully search his tablet computer
in violation of the Fourth Amendment.

40a
A
1
To prove a conspiracy under § 1983, a plaintiff
must show “at least a combination of two or more
persons acting in concert and an allegation of a
meeting of the minds, an agreement among the
defendants, or a general conspiratorial objective.”
Brooks v. Gaenzle, 614 F.3d 1213, 1227–28 (10th Cir.
2010). And “a plaintiff must allege specific facts
showing an agreement and concerted action amongst
the defendants. ‘Conclusory allegations of conspiracy
are insufficient to state a valid § 1983 claim.’”
Tonkovich v. Kan. Bd. of Regents, 159 F.3d 504, 533
(10th Cir. 1998) (citation omitted) (quoting Hunt v.
Bennett, 17 F.3d 1263, 1266 (10th Cir. 1994)); accord
Brooks, 614 F.3d at 1228.
We have helpfully elaborated on the nature of a
conspiracy claim in Snell:
A plaintiff seeking redress need not prove
that each participant in a conspiracy knew
the “exact limits of the illegal plan or the
identity of all the participants therein.” An
express agreement among all the conspirators
is not a necessary element of a civil
conspiracy. The participants in the conspiracy
must share the general conspiratorial
objective, but they need not know all the
details of the plan designed to achieve the
objective or possess the same motives for
desiring the intended conspiratorial result.
To demonstrate the existence of a
conspiratorial agreement it simply must be
shown that there was “a single plan, the

41a
essential nature and general scope of which
[was] know[n] to each person who is to be
held responsible for its consequences.”
920 F.2d at 702 (first alteration in original) (citations
omitted) (quoting Hampton v. Hanrahan, 600 F.2d
600, 621 (7th Cir. 1979), rev’d in part on other
grounds, 446 U.S. 754 (1980)).
As evident from this quoted passage of Snell, to
be actionable, the defendants must have actually
formed an agreement—even though it need not be
express. Therefore, proof that defendants engaged in
“[p]arallel action . . . does not necessarily indicate an
agreement to act in concert.” Brooks, 614 F.3d at
1228 (alteration in original) (quoting Salehpoor v.
Shahinpoor, 358 F.3d 782, 789 (10th Cir. 2004)).
Furthermore, it is also evident from Snell’s quoted
language that the agreement must be illegal. In the
§ 1983 context, that means the agreement must
relate to “some deprivation of a federally protected
right.” Mitchell, 218 F.3d at 1198; accord Bendiburg
v. Dempsey, 909 F.2d 463, 468 (11th Cir. 1990).
Therefore, proof that defendants formed an
agreement or conspired to engage in lawful
activities—including lawful investigative activities—
would be inadequate to support a § 1983 conspiracy
claim. See Grider, 618 F.3d at 1260 (deeming
inadequate showing in § 1983 claim that lawenforcement officers unlawfully conspired to falsely
charge the individual plaintiff with bribery, where
“[a]t best” the evidence showed that the officers
“assisted” another officer in a criminal investigation,
“which is lawful and part of their duties as law
enforcement officers” and “is a far cry from showing
that [the officers] agreed to fabricate, and then

42a
maliciously prosecute [the plaintiff] for, a bribery
crime he did not commit”).
2
The district court only briefly commented on the
merits (as relevant here) of the Fourth Amendment
conspiracy claim regarding the search of Mr.
Frasier’s tablet computer before denying qualified
immunity to the officers. The sum total of its
reasoning directly related to this issue is the
following:
Mr. Frasier has adduced evidence sufficient
to create genuine disputes of material fact as
to whether the officer defendants came to an
agreement which ultimately led to Officer
Evans’s alleged illegal search of the tablet
[computer]. The HALO video7 shows the
officers surrounding Mr. Frasier. It appears
obvious from the video (or at least a
reasonable jury could conclude, even without
sound) that a heated discussion took place,
after which Mr. Frasier conceded to the
officers’ demands.
It is not fatal to this claim that Mr. Frasier
cannot identify which officer said what to
him. All were present for this encounter, and
coupled with Mr. Frasier’s testimony, the
evidence, if credited by the jury, could
support a reasonable conclusion that
together, the officer defendants agreed,
The district court did not explain what “HALO video” is,
but this video is apparently captured by a type of “surveillance
camera[]” that the Denver police use. Aplts.’ App. at 190 n.6.
7

43a
whether expressly or tacitly, to force Mr.
Frasier to submit the tablet [computer] to a
search.
Aplts.’ App. at 1029. Thus, the district court
concluded that Mr. Frasier had satisfied his burden
to show that each of the officer defendants conspired
to unlawfully search his tablet computer in violation
of his Fourth Amendment rights—thereby clearing
the first (constitutional-violation) hurdle of the
qualified-immunity standard. And, because the
district court found that the officers did “not argue
the law was not clearly established as to this alleged
violation of Mr. Frasier’s constitutional rights”—that
is, the second, clearly-established-law hurdle under
the
qualified-immunity
standard—the
court
concluded that Mr. Frasier had satisfied fully his
qualified-immunity burden, and the officers were not
entitled to summary judgment. Id. at 1029 n.17.
B
The officer defendants vigorously contend that
the district court’s order denying them qualified
immunity on Mr. Frasier’s Fourth Amendment
conspiracy claim is erroneous—both because the
court’s factual findings allegedly are not sufficient to
support a legal conclusion that they conspired to
violate Mr. Frasier’s Fourth Amendment rights by
unlawfully searching his tablet computer and
because any Fourth Amendment rights that Mr.
Frasier possessed to be free from such a conspiracy
were not clearly established in August 2014 under
the particular facts of this case. We set forth the
officers’ arguments—in their own words—in greater
detail than might otherwise be customary because

44a
their words are relevant to the threshold challenges
that Mr. Frasier mounts almost single-mindedly in
his effort to uphold the district court’s judgment. As
to whether the district court erred in concluding that
they violated Mr. Frasier’s Fourth Amendment rights
through a civil conspiracy, in pertinent part, the
officers aver the following:
The district court [] erred in denying
qualified immunity to the Officers on Mr.
Frasier’s conspiracy claims because the
findings made by the court are incapable of
satisfying the elements of a civil conspiracy.
The court’s findings do not suffice to show
that the Officers’ mere presence at the group
conversation was an act taken in concert for
the purpose of depriving Mr. Frasier of his . . .
Fourth Amendment rights. . . . The fact that
each Officer approached the conversation,
and remained there for approximately 30
seconds is, in and of itself, nothing more than
conscious parallel conduct,
which is
insufficient to show that each Officer acted in
concert with one another within the meaning
of a conspiracy claim. . . .
The Officers’ lack of shared knowledge
also precludes a finding that there was any
conspiratorial meeting of the minds preceding
the group conversation. To the extent that the
district court identified any shared objective
amongst the Officers, it was to investigate the
crimes committed by [the arrested suspect]
and ascertain the existence of the recording,
which Mr. Frasier had falsely denied
possessing. . . . The only alleged unlawful

45a
aspect of any of the Officers’ conduct is that
Officer Evans later grabbed the tablet
[computer] from Mr. Frasier’s hands without
his permission. However, the district court
did not find any facts indicating that the
other Officers were even aware of the alleged
search/seizure of the tablet [computer], let
alone that such was undertaken as part of an
agreement between them. The district court’s
failure to identify any shared conspiratorial
objective amongst the Officers in connection
with the “heated discussion,” beyond a desire
to conduct a lawful criminal investigation,
precludes the finding of a conspiracy.
Aplts.’ Opening Br. at 47–49.
Regarding whether any Fourth Amendment
rights of Mr. Frasier to be free from a conspiracy to
search his tablet computer were clearly established
in August 2014, the officers argued to the contrary.
At the outset, they dispute the district court’s
assertion that they failed to make a clearlyestablished-law argument and thus forfeited it,
noting that they raised this issue in their summaryjudgment briefing. Id. at 40 n.13. As to the merits, in
relevant part, the officers argue the following:
In this case, neither the district court, nor
Plaintiff,
identified
authority
clearly
establishing that any reasonable officer in the
Officers’ position would have understood that
what he was doing constituted a conspiracy in
violation of Mr. Frasier’s . . . Fourth
Amendment rights. The court premised its
denial of qualified immunity on the portion of

46a
the HALO video which depicted a “heated
discussion” between Mr. Frasier and the
Officers after which Mr. Frasier purportedly
conceded to the Officers’ requests by
retrieving his tablet with the video recording.
...
However, the court also found that it was
entirely lawful for Officer Evans to question
Mr. Frasier, request that he provide his
recording, and then detain him after Mr.
Frasier falsely denied possessing the
recording in violation of Colorado law. . . .
[And] [t]he court did not find evidence that
there was any discussion amongst the
Officers regarding the search prior to it
taking place. The only instance identified by
the district court where Officers Evans and
another one of the Officers conversed outside
of Mr. Frasier’s presence was after the
alleged search. . . .
The district court’s analysis also fails to
take into account the scienter component of a
conspiracy claim. Specifically, the court made
no effort to differentiate the Officers’ lawful
objectives to investigate and document the
crimes committed by [the arrested suspect]
and, subsequently Mr. Frasier—in providing
deliberately false information—from their
allegedly unlawful objective of conducting a
warrantless search of the tablet [computer].

47a

Id. 41–43.8
Confronted by the officers’ relatively extensive
merits arguments—concerning whether there were
sufficient facts in the summary-judgment record to
support the district court’s determination that the
officers violated Mr. Frasier’s Fourth Amendment
rights by conspiring to unlawfully search his tablet
computer, and, if so, whether any such Fourth
Amendment rights were clearly established in
August 2014—Mr. Frasier almost single-mindedly
presents certain threshold, non-merits arguments in
his effort to uphold the district court’s judgment. As
we detail below, these arguments relate to whether
we have jurisdiction to hear the officers’ merits
arguments, and, if so, whether certain of those
arguments are forfeited. We conclude that Mr.
Frasier’s threshold, non-merits arguments are
misguided and unsound; accordingly, they do not
preclude us from reaching the merits. And, as to the
merits, we determine that Mr. Frasier’s arguments
are woefully deficient. Consequently, he cannot
succeed in upholding the district court’s order
denying qualified immunity to the officers on Mr.
Frasier’s Fourth Amendment conspiracy claim.
8
Despite our holding to the contrary in Brever v. Rockwell
International Corporation, 40 F.3d 1119, 1126–27 (10th Cir.

1994), the officers also argue that there was “uncertainty in the
law regarding the intracorporate-conspiracy doctrine[’s]”
applicability in the context of civil-rights claims. Aplts.’ Opening
Br. at 45–46. Supposedly, this uncertainty “indicates that it was
not clearly established that it is even possible for the Officers to
have formed a civil conspiracy because they were all employed
by the same legal entity, the City and County of Denver.” Id. at
46. In light of our approach to resolving this appeal, we had no
occasion to consider this contention further.

48a
C
We turn now to address Mr. Frasier’s threshold,
non-merits arguments. Mr. Frasier effectively bets
the proverbial farm on the belief that these
arguments will prevail—giving, at best, short shrift
to his merits arguments. But he loses this bet.
1
Mr. Frasier argues that “this Court lacks
jurisdiction to review Defendants’ qualified-immunity
argument on Plaintiff’s claim that Defendants
conspired to illegally search his tablet [computer]
under the Fourth Amendment.” Aplee.’s Resp. Br. at
62. Mr. Frasier appears to reason as follows: (1) the
officers “never argued [before the district court] they
are entitled to qualified immunity on [Mr. Frasier]’s
claim that they conspired to violate his Fourth
Amendment rights”—and more specifically, the
officers were “arguing only sufficiency of [the]
evidence”; (2) “[b]ecause [the officers] did not argue
this [qualified-immunity defense], the district court
found the argument forfeited,” and (3) because there
was no qualified-immunity argument before it, “the
district court’s ruling was not an implicit rejection of
qualified immunity.” Id. at 61. Accordingly, reasons
Mr. Frasier, because the district court did not deny
the officers qualified immunity as to his Fourth
Amendment conspiracy claim, we do not have
interlocutory appellate jurisdiction over the officers’
qualified-immunity argument as to that claim.
Mr. Frasier’s argument is fundamentally
mistaken concerning the state of the record. First, in
their motion for partial summary judgment, the
officers expressly asserted that they were “entitled to

49a
summary judgment on [Mr. Frasier’s] conspiracy
claims” because he was “unable to overcome the
defense of qualified immunity.” Aplts.’ App. at 217.
They further maintained that there was “no evidence
of a constitutional violation by [them]” and that the
record was “devoid of evidence to demonstrate that
two or more of [them] acted in concert to deprive Mr.
Frasier of his constitutional rights or that a meeting
of the minds by [them] to do so existed.” Id. Thus, the
officers expressly invoked the qualified-immunity
defense.
Insofar as Mr. Frasier suggests that the officers’
contention that the record lacked sufficient evidence
to establish a constitutional violation is not a
qualified-immunity argument, he is misguided.
Arguing that “discovery fail[ed] to uncover evidence
sufficient to create a genuine issue whether the
defendant committed [a constitutional] violation” is a
typical qualified-immunity argument. Johnson v.
Fankell, 520 U.S. 911, 915 (1997); see Est. of Smart,
951 F.3d at 1169 (explaining that a defendant is
entitled to qualified immunity at summary judgment
if the plaintiff cannot establish that “a reasonable
jury could find facts supporting a violation of a
constitutional right” (quoting Gutierrez v. Cobos, 841
F.3d 895, 900 (10th Cir. 2016))). Moreover, the
officers expressly raised their qualified-immunity
defense with respect to the Fourth Amendment
conspiracy claim when they asserted in their partial
summary-judgment motion that they were “entitled
to summary judgment on [the] conspiracy claims”
because Mr. Frasier was “unable to overcome the
defense of qualified immunity.” Aplts.’ App. at 217.

50a
Furthermore, the district court’s comments
regarding forfeiture did not relate to the officers’
qualified-immunity defense per se but, instead, to the
officers’ ostensible forfeiture of an argument with
respect to the clearly-established-law component of
the qualified-immunity standard. See id. at 1029 n.17
(noting, in discussing the Fourth Amendment
conspiracy claim, that the officers “do not argue the
law was not clearly established as to this alleged
violation of Mr. Frasier’s constitutional rights, and I
therefore infer they . . . have forfeited any such
argument”). And thus the district court’s remarks
about the officers’ forfeiture did not amount to a
statement—which would have been mistaken—that
the officers did not assert a qualified-immunity
defense with respect to the Fourth Amendment
conspiracy claim.
And we have no need to scrutinize the district
court’s order on the officers’ motion for partial
summary judgment to see whether it constituted “an
implicit rejection of qualified immunity,” Aplee.’s
Resp. Br. at 61 (emphasis added), as to Mr. Frasier’s
Fourth Amendment conspiracy claim. That is because
the district court, in fact, expressly rejected the
officers’ qualified-immunity defense. See Aplts.’ App.
at 1035 (“[T]he motion is denied with respect to Mr.
Frasier’s claim for civil conspiracy against defendants
. . . insofar as that claim is premised on the allegedly
illegal search of Mr. Frasier’s tablet [computer].”); id.
at 1070 (Order Granting Defs.’ Unopposed Mot. for
Extension of Time to File Notice of Appeal, filed Dec.
13, 2018) (stating that the court “denied, in part,
defendants’ motion seeking qualified immunity as to
some of plaintiff’s constitutional claims,” which

51a
included Mr. Frasier’s Fourth Amendment conspiracy
claim, and “[t]hat order constitutes an immediately
appealable final order”).
Accordingly, for the foregoing reasons, Mr.
Frasier’s jurisdictional challenge is mistaken
concerning the state of the record and otherwise
without merit. Cf. Cox, 800 F.3d at 1243–44
(concluding that we had jurisdiction “over [the
defendant’s] interlocutory appeal from the denial of
qualified immunity,” when “the court did explicitly
deny [the defendant] all relief in its order, and part of
the relief that [the defendant] unquestionably sought
in his summary-judgment briefing was qualified
immunity”).
2
Even if we have jurisdiction over the officers’
qualified-immunity appeal as to his Fourth
Amendment conspiracy claim, Mr. Frasier appears to
argue that the officers have “forfeited” any
arguments pertaining to the clearly-established-law
component of the summary-judgment standard—that
is, forfeited any argument that “the law was not
clearly established in August 2014” when they
allegedly conspired to violate Mr. Frasier’s Fourth
Amendment rights. Aplee.’s Resp. Br. at 61–62. In
this connection, Mr. Frasier points out that the
district court itself said that the officers “d[id] not
argue the law was not clearly established as to this
alleged [conspiracy] violation of Mr. Frasier’s [Fourth
Amendment]
constitutional
rights”
and,
consequently, they “forfeited any such argument.”
Aplts.’ App. at 1029 n.17; see Aplee.’s Resp. Br. at 61

52a
(noting that “the district court found the argument
forfeited”).
However, like Cox, even if we were to assume
that the officers were “obliged to marshal
particularized arguments in support of the clearlyestablished-law question” and therefore forfeited
such arguments by not making them before the
district court, we would “exercise . . . our discretion to
overlook the assumed forfeiture” on these facts and
“elect here to reach the merits of [the officers’]
qualified-immunity arguments based on the absence
of clearly established law.” Id. at 1245–46; see, e.g.,
Abernathy v. Wandes, 713 F.3d 538, 552 (10th Cir.
2013) (“[T]he decision regarding what issues are
appropriate to entertain on appeal in instances of
lack of preservation is discretionary.”).
Indeed, the argument here is even stronger than
it was in Cox for exercising such discretion because—
even though it was his burden to do so—Mr. Frasier
did not even go as far as the Cox plaintiff: she at least
made “feeble efforts” and “an anemic attempt to carry
[her] burden as to the clearly-established-law
question.” Id. But here, in opposing the officers’
motion for partial summary judgment, Mr Frasier
made no clearly-established-law argument at all with
respect to his Fourth Amendment conspiracy claim—
though he showed that he was aware of this burden
by making such an argument regarding other claims
elsewhere in his opposition brief. See Aplts.’ App. at
467 (discussing Mr. Frasier’s claim that the officers
“conspired to violate [his] constitutional rights,”
without any mention of the clearly-established-law
component (bold-face font and capitals omitted)); see
also id. at 465 (discussing the clearly-established-law

53a
component as to Mr. Frasier’s Fourth Amendment
unlawful search and detention claims).
In sum, even if the officers forfeited their clearlyestablished-law arguments, we would exercise our
discretion to consider them. See Cox, 800 F.3d at
1246 (“In any event, in deciding whether it is a
proper exercise of our discretion to overlook the
assumed forfeiture of [the defendant] regarding the
clearly-established-law question, [the plaintiff’s]
significant briefing shortcomings on this same
question—as to which she bears the burden of
proof—should be taken into account. And we do so
when we elect here to reach the merits of [the
defendant’s] qualified-immunity arguments based on
the absence of clearly established law.”). Mr.
Frasier’s second threshold argument therefore fails.
3
In contending that we should not reach the
merits, Mr. Frasier makes one last jurisdictional
argument in the following terms: “Defendants’
argument about whether the law was clearly
established at the time (as to conspiracy to violate . . .
Fourth Amendment rights) assumes facts favorable
to them. This deprives this Court of jurisdiction to
consider the argument.” Aplee.’s Resp. Br. at 63. In
this regard, Mr. Frasier asserts that he “presented
evidence that after the Defendants surrounded him
in a circle and demanded the video from him,
implying arrest if he refused, he acquiesced and
retrieved his tablet [computer] for Evans,” but that
“Defendants reject this view of the facts.” Id. at 64.
Mr. Frasier’s last jurisdictional argument is mistaken
and otherwise without merit.

54a
It is quite true that, under our “limited
jurisdiction” to review interlocutory, qualifiedimmunity appeals, our review is restricted to “the
district court’s abstract legal conclusions,” and “we
are not at liberty to review a district court’s factual
conclusions.” Fogarty v. Gallegos, 523 F.3d 1147,
1153–54 (10th Cir. 2008); accord Dodds v.
Richardson, 614 F.3d 1185, 1192 (10th Cir. 2010).
Thus, where a district court “concludes that a
reasonable jury could find certain specified facts in
favor of the plaintiff, the Supreme Court has
indicated we usually must take them as true—and do
so even if our own de novo review of the record might
suggest otherwise as a matter of law.” Sawyers, 962
F.3d at 1281 (quoting Est. of Booker, 745 F.3d at
409–10); accord Lewis v. Tripp, 604 F.3d 1221, 1225
(10th Cir. 2010).
But this well-settled prohibition against review of
the district court’s factual conclusions relates to the
district court’s factual findings based on the
summary-judgment record. That is, the bar pertains
to revisiting the court’s factual conclusions
concerning what facts a reasonable jury could find
based on the evidence in that record—construing that
evidence in the light most favorable to the plaintiff.
That prohibition, however, does not prevent appellate
courts—and defendants asserting qualified immunity
on interlocutory appeal—from challenging the
district court’s legal analysis of the facts it has found
nor, relatedly, the court’s ultimate resolution of the
abstract legal questions before it. Wesby, 138 S. Ct.
at 588 (observing that “the panel majority failed to
follow two basic and well-established principles of
law” in analyzing the facts underlying its legal

55a
probable-cause determination); cf. Pahls v. Thomas,
718 F.3d 1210, 1232 (10th Cir. 2013) (holding, in the
context of a qualified-immunity interlocutory appeal,
that where a district court’s “factual determination is
predicated on an erroneous legal conclusion, . . .
because we may review the latter, we need not accept
the former as true”); Snell, 920 F.2d at 701
(concluding that “the district court’s focus” in
analyzing the record facts bearing on the conspiracy
“was too narrow” and should have taken into
consideration the conspirators’ conduct leading up to
the allegedly unlawful search).
We believe that Mr. Frasier’s jurisdictional
argument here reflects a mistaken reading of the
substance and thrust of the officers’ briefing.
Regarding the substance, though they sometimes use
more muted language in describing the relevant
events, we discern no indication from their briefing
that the officers contest the evidence that Mr. Frasier
“presented” about the officers surrounding him and
demanding that he turn over the video contained on
his tablet computer and about Mr. Frasier’s
contention that he submitted to the officers’ demands
because he harbored concerns regarding being
arrested and going to jail. See, e.g., Aplts.’ Opening
Br. at 12–13 (noting that, in addition to Officer
Evans, “several other officers approached” Mr.
Frasier and that “he felt that if he did not show the
officers the tablet . . . he was going to jail”); id. at 41–
42 (without contesting the facts stating, “[t]he court
premised its denial of qualified immunity on the
portion of the HALO video which depicted a ‘heated
discussion’ between Mr. Frasier and the Officers after
which Mr. Frasier purportedly conceded to the

56a
Officers’ requests by retrieving his tablet [computer]
with the video recording”).
Moreover, Mr. Frasier has not suggested that the
district court did not construe the summaryjudgment record in the light most favorable to him.
This is significant because the officers leave no doubt,
for purposes of this interlocutory appeal, that they
accept the facts that the district court found to be
supported by the record. See Aplts.’ Reply Br. at 5
(“The facts found by the district court should be
accepted by this Court in ruling on this Appeal.”); see
also id. at 22 (“Defendants do not assume any facts,
but rather set forth facts as found by the district
court.”). Therefore, in doing so, the officers have
necessarily accepted the version of the record that is
construed in the light most favorable to Mr. Frasier.
Cf. Cox, 800 F.3d at 1243–44 (“Notably, [the
defendant] has accepted the truth of [the plaintiff’s]
version of the facts for purposes of this appeal. Under
our controlling caselaw . . ., that ordinarily will
permit us to address the legal issues presented by the
agreed-upon set of facts, and there is nothing about
this case that would counsel against following that
path.”); Farmer v. Perrill, 288 F.3d 1254, 1258 n.4
(10th Cir. 2002) (“Appellate jurisdiction in cases of
this type is clear when the defendant does not
dispute the facts alleged by the plaintiff.”).
As for the thrust of their briefing arguments, the
officers certainly vigorously challenge the scope and
nature of the district court’s legal analysis of the facts
that it found. Among other things, the officers argue
that the court’s legal analysis of their liability on the
Fourth Amendment conspiracy claim omitted
relevant, court-found facts concerning whether their

57a
actions in surrounding Mr. Frasier and demanding
his tablet computer evinced an unlawful conspiracy
to search the computer. In other words, they contend
that “the district court’s focus” in analyzing the
record facts bearing on the conspiracy “was too
narrow.” Snell, 920 F.2d at 701. And, relatedly, the
court failed to factor into its analysis gaps in the
pattern of facts that it did find that were legally
significant to the proper resolution of the conspiracy
question.
For instance, the officers argue that the court
should have factored into its legal analysis the court’s
own finding that “the video constituted potential
evidence possibly relevant to any subsequent
criminal proceeding involving [the arrested suspect].”
Aplts.’ App. at 1024; see Aplts.’ Reply Br. at 22
(noting among the facts that should have played a
role in the district court’s legal analysis the fact that
“the recording constituted evidence relevant to the
Officers’ investigation”). Similarly, they contend that
the district court should have incorporated into its
legal, conspiracy analysis its finding that “[t]he only
instance . . . where Officer[] Evans and another one of
the Officers conversed outside of Mr. Frasier’s
presence was after the alleged search.” Aplts.’
Opening Br. at 43; see also Aplts.’ App. at 1016
(where the court discussed Officer Evans’s
communication after the search “with Sergeant
Bothwell and two other officers, holding Mr. Frasier’s
written statement in his hand”).
Furthermore, as for gaps, the officers contend
that the district court should have recognized that its
findings concerning the officers’ conduct did not touch
on subjects critical to an affirmative legal

58a
determination that the officers participated in an
unlawful conspiracy to search the tablet computer:
“The court did not find evidence that there was any
discussion amongst the Officers regarding the search
prior to it taking place.” Aplts.’ Opening Br. at 42–43.
In a similar vein, the officers argue:
The district court’s analysis also fails to take
into account the scienter component of a
conspiracy claim. Specifically, the court made
no effort to differentiate the Officers’ lawful
objectives to investigate and document the
crime committed by [the arrested suspect]
and, subsequently Mr. Frasier—in providing
deliberately false information—from their
allegedly unlawful objective of conducting a
warrantless search of the tablet [computer].

Id. at 43.
Thus, the thrust of the officers’ argument is
that—because of the district court’s allegedly flawed
approach to the facts that it did find—the court erred
in reaching the legal conclusion that the facts were
sufficient to establish that the officers engaged in a
conspiracy to search Mr. Frasier’s tablet computer
that violated his clearly established Fourth
Amendment rights. We conclude that, irrespective of
the merits of the officers’ arguments—and we do not
opine on their merits now—these arguments do not
dispute the facts found by the district court, but
instead, raise the sort of legal questions that we have
jurisdiction to resolve. See Pearson v. Callahan, 555
U.S. 223, 232 (2009) (noting that, in conducting a
qualified-immunity analysis at the summaryjudgment phase, “a court must decide whether the

59a
facts that a plaintiff has . . . shown . . . make out a
violation of a constitutional right” and “whether the
right at issue was ‘clearly established’ at the time of
defendant’s alleged misconduct” (citations omitted));
cf. Plumhoff, 572 U.S. at 773 (noting, in the qualifiedimmunity setting, that petitioner-officers “raise legal
issues; these issues are quite different from any
purely factual issues that the trial court might
confront if the case were tried; deciding legal issues
of this sort is a core responsibility of appellate
courts”). Accordingly, we reject Mr. Frasier’s last
jurisdictional argument and proceed to the merits.
D
Regarding the merits, Mr. Frasier’s arguments
are woefully deficient and, consequently, he cannot
defeat the officers’ defense of qualified immunity.
Recall that
[w]hen a defendant asserts qualified
immunity at summary judgment, the burden
shifts to the plaintiff, who must clear two
hurdles in order to defeat the defendant’s
motion. The plaintiff must demonstrate on
the facts alleged both that the defendant
violated his constitutional or statutory rights,
and that the right was clearly established at
the time of the alleged unlawful activity.

Riggins v. Goodman, 572 F.3d 1101, 1107 (10th Cir.
2009); accord Cox, 800 F.3d at 1245.
Despite doing so before the district court, see
Aplts.’ App. at 467, Mr. Frasier makes no argument
at all in his response brief regarding whether the
facts that the district court found—construed in the

60a
light most favorable to him—support the legal
conclusion that the officers violated his Fourth
Amendment rights by conspiring to unlawfully
search his tablet computer. As such, Mr. Frasier has
waived any such argument. See FED. R. APP. P.
28(a)(8)(A) & 28(a)(8)(B) (providing that appellants
and appellees must provide “contentions and the
reasons for them, with citations to the authorities
and parts of the record on which the appellant [and
the appellees] rel[y]”); cf. COPE v. Kan. State Bd. of
Educ., 821 F.3d 1215, 1219 n.4 (10th Cir. 2016)
(noting that, where plaintiff “makes only passing
references to [First Amendment] claims on appeal,”
those claims are “waived”); United States v.
Yelloweagle, 643 F.3d 1275, 1280 (10th Cir. 2011)
(noting that “where a defendant raises an issue
before the district court but does not pursue it on
appeal, we ordinarily consider the issue waived”).
And this waiver in itself sounds the death knell for
Mr. Frasier’s challenge to the officers’ assertion of
qualified immunity. That is because Mr. Frasier must
“clear” both the constitutional-violation and clearlyestablished-law “hurdles.” Riggins, 572 F.3d at 1107;
accord Felders, 755 F.3d at 877–78; see also Pearson,
555 U.S. at 236 (“The judges of the district courts and
the courts of appeals should be permitted to exercise
their sound discretion in deciding which of the two
prongs of the qualified immunity analysis should be
addressed first in light of the circumstances in the
particular case at hand.”).
However, even if we consider Mr. Frasier’s
arguments concerning the clearly-established-law
question, he does not fare much better. At least here
Mr. Frasier’s response brief does make an argument

61a
regarding this question but it amounts to little more
than this conclusory statement: “It was also clearly
established that Evans could not illegally search
Plaintiff’s tablet [computer] and the Defendants could
not conspire to commit an illegal search.” Aplee.’s
Resp. Br. at 64–65. Standing alone, that conclusory
statement would certainly not be enough to carry his
burden. See, e.g., COPE, 821 F.3d at 1219 n.4.
Mr. Frasier does, however, cite two authorities to
support his position: the Supreme Court’s decision in
Riley v. California, 573 U.S. 373, 386–87 (2014), and
our decision in Snell, 920 F.2d at 701–02. Aplee.’s
Resp. Br. at 65. But Mr. Frasier does not apply these
authorities to the facts of this case or otherwise
explain why they clearly establish with particularity
his Fourth Amendment rights to be free from the
officers’ alleged conspiracy. It should be front of mind
by now that—absent the “rare ‘obvious case,’” Wesby,
138 S. Ct. at 590 (quoting Brosseau, 543 U.S. at 199),
where general constitutional principles apply to the
facts “with obvious clarity,” Hope, 536 U.S. at 741
(quoting Anderson, 483 U.S. at 640), and Mr. Frasier
does not argue as to the conspiracy claim that this is
such a case—clearly established law must be
“particularized” to the circumstances of the case.
Apodaca, 864 F.3d at 1076 (“A precedent is often
particularized when it involves materially similar
facts.”); see id. (noting that the concept of clearly
established law, in relevant part, “requir[es]
precedents involving materially similar conduct”). “It
is not enough that the rule is suggested by thenexisting precedent. The precedent must be clear
enough that every reasonable official would interpret

62a
it to establish the particular rule the plaintiff seeks
to apply.” Wesby, 138 S. Ct. at 590.
Neither Riley nor Snell supplies clearly
established law under this standard. Riley is a
factually inapposite criminal case that did not have
at issue any allegations of an unlawful conspiracy—
much less unlawful conspiracy to violate the Fourth
Amendment. Rather, in Riley, the Court was obliged
“to decide how the search incident to arrest doctrine
applies to modern cell phones,” and on the pages
cited by Mr. Frasier, simply answered the question in
the negative, holding that, when conducting
“searches of data on cell phones . . . officers must
generally secure a warrant before conducting such a
search.” 573 U.S. at 385–86. Except for both cases
involving law enforcement searches of electronic
devices, Riley bears no resemblance to this case.
Therefore, Mr. Frasier’s reliance on Riley for clearly
established law is unavailing.
Mr. Frasier does little better by looking to Snell
for recourse. Mr. Frasier expressly says in his brief
that he cites Snell for the proposition that
“conspiracy to harass and conduct a retaliatory
search is actionable.” Aplee.’s Resp. Br. at 65. Yet, it
should be patent that this is a far too general legal
principle to provide clearly established law for these
facts. And, though Snell (unlike Riley) did at least
involve allegations of an unlawful conspiracy, the
factual circumstances of that case are starkly
different from this one—pertaining to “a search of the
[plaintiffs’] home on the basis of known false
information”
about
“child
prostitution
and
pornography.” Snell, 920 F.2d at 701. There are
simply no “materially similar facts” that could permit

63a

Snell to serve as clearly established law for the
alleged conspiracy here. Apodaca, 864 F.3d at 1076.
Therefore, Snell, too, does not help Mr. Frasier.
Because it is Mr. Frasier’s burden to show that any
alleged Fourth Amendment right that he possessed to
be free from the officers’ conspiracy to search of his
tablet computer was clearly established in August
2014, and he has not done so, we may determine—on
this independent ground as well—that Mr. Frasier
cannot defeat the officers’ defense of qualified
immunity.
***
In sum, we have concluded at the threshold that
our determination that the officers are entitled to
qualified immunity as to Mr. Frasier’s First
Amendment retaliation claim necessarily means that
they are entitled to qualified immunity concerning
Mr. Frasier’s First Amendment conspiracy claim.
And, after the foregoing analysis, we conclude that
the district court erred in denying the officers
qualified immunity with respect to Mr. Frasier’s
Fourth Amendment conspiracy claim based on the
search of his tablet computer.
IV
In sum, we REVERSE the district court’s partial
denial of the officers’ motions for summary judgment
on the grounds of qualified immunity. We REMAND
the case to the district court for further proceedings
consistent with this opinion.

64a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Robert E. Blackburn
Civil Action No. 15-cv-01759-REB-KLM
LEVI FRASIER,
Plaintiff,
v.
Denver Police Officers CHRISTOPHER L.
EVANS, #05151, CHARLES C. JONES, #04120,
JOHN H. BAUER, #970321, RUSSELL
BOTHWELL, #94015, and JOHN ROBLEDO,
Defendants.
ORDER GRANTING PLAINTIFF’S MOTION TO
RECONSIDER
Blackburn, J.
The matter before me is Plaintiff’s Motion To
Reconsider
Order
Re:
Objections
to
Recommendation of United States Magistrate
Judge [Dkt. 70] [#107],1 filed August 17, 2018. I
grant the motion.
By this motion, plaintiff Levi Frasier seeks
reconsideration of that portion of my order granting
the individual officer defendants’ motion to dismiss
“[#107]” is an example of the convention I use to identify
the docket number assigned to a specific paper by the court’s
case management and electronic case filing system (CM/ECF). I
use this convention throughout this order.
1

65a
Mr. Frasier’s First Amendment retaliation claims
against them on the ground that the relevant law
was not clearly established. (See Order Re:
Objections to Recommendation of United States
Magistrate Judge [#70], filed September 28, 2017.)
The bases warranting reconsideration of a previous
order are limited to “(1) an intervening change in the
controlling law, (2) new evidence previously
unavailable, and (3) the need to correct clear error or
prevent manifest injustice.” Servants of the
Paraclete v. Does, 204 F.3d 1005, 1012 (10th Cir.
2000) (citations omitted). Nevertheless, both the
second and third of these considerations is implicated
by Mr. Frasier’s motion. I therefore grant the motion
and reinstate his First Amendment retaliation claims
against the officer defendants.
In considering the officer defendants’ prior
motion to dismiss, I found that although there exists
a First Amendment right to record the police in the
public performance of their official duties, that right
was not clearly established with respect to the
officers’ alleged conduct in this case. (See Order Re:
Objections to Recommendation of United States
Magistrate Judge at 2-7 [#70], filed September 28,
2017.) In so concluding, I noted the distinction
between the cases in which it was clearly established
that members of the public had a right to record
officers and the facts of Mr. Frasier’s case were
“subtle” but that “qualified immunity is not defeated
by subtleties. ‘[O]fficials are not liable for bad guesses
in gray areas; they are liable for transgressing bright
lines.”’ (Id. at 6 (quoting Maciariello v. Sumner, 973
F.2d 295, 298 (4th Cir. 1992), cert. denied, 113 S. Ct.
1048 (1993)).). I therefore found the defendant

66a
officers entitled to qualified immunity and dismissed
Mr. Frasier’s First Amendment retaliation claims
against them.
Subsequently, the City sought summary
judgment on Mr. Frasier’s municipal liability claims,
which alleged the City failed to adopt a policy
regarding the First Amendment rights of citizens to
record officers and failed to train, supervise, and/or
discipline its officers in that respect. In support of
that
motion,
the City presented
evidence
demonstrating that not only did it have such a policy
in place many years before the defendant officers
encountered Mr. Frasier, but that each of the
defendant officers had received both formal and
informal training regarding the subject. Moreover,
each of the defendant officers acknowledged at their
respective depositions that they understood the First
Amendment protected citizens’ right to record them. I
found that evidence dispositive of Mr. Frasier’s
claims against the City and dismissed those claims
with prejudice. (See Order Re: Defendants’ Motion
for Partial Summary Judgment at 24-26 [#119],
filed November 21, 2018.)
While dispositive of the municipal liability
claims, this evidence casts doubt on my prior
determination that the officer defendants were
entitled to qualified immunity. Purely as a matter of
logic, it makes no sense to say that an officer may
wear the mantle of a reasonable (but less wellinformed) counterpart in seeking dismissal on
qualified immunity grounds and then permit his
employer also to avoid liability when he later admits
in discovery he did in fact know the constitutional
contours of the right were as the plaintiff initially

67a
alleged. The court would be loath to sanction this
type of “head’s I win, tails you lose” strategy simply
because it smacks of gamesmanship. Nevertheless,
despite a dearth of legal authority on the question, is
it inconsistent with the law of qualified immunity as
well.
Although qualified immunity “leaves ample room
for mistaken judgments,” it does not protect “the
plainly incompetent or those who knowingly violate
the law.” Malley v. Briggs, 475 U.S. 335, 341 (1986).
See also Harman v. Pollock, 586 F.3d 1254, 1261
(10th Cir. 2009), cert. denied, 131 S. Ct. 73 (2010).
While Harlow v. Fitzgerald, 457 U.S. 800, 102 S. Ct.
2727 (1982), excised the subjective component of
qualified immunity analysis, see id., 102 S. Ct. at
2737-38, the individual officer’s actual knowledge did
not become completely irrelevant thereby. Indeed, in
his concurring opinion in Harlow, Justice Brennan
noted specifically that he joined the majority’s
opinion because the standard it adopted “would not
allow the official who actually knows that he was
violating the law to escape liability for his actions,
even if he could not ‘reasonably have been expected’
to know what he actually did know.” Id. at 2739
(Brennan, J. concurring) (emphasis in original). See
also Butz v. Economou, 438 U.S. 478, 506 (1978)
(“[I]t is not unfair to hold liable the official who
knows or should know he is acting outside the
law[.]”).
Stated
differently,
the
“objective
legal
reasonableness” of an officer’s conduct cannot be
divorced from the actual contents of his mind. The
fiction of the hypothetical reasonable officer is a
useful device in attempting to discern what an

68a
individual officer should know, but it must give way
when the reality shows the actual officer was better
informed than his fictional colleague. Harlow does
not require such a result; the subjective element it
removed from the qualified immunity analysis was
not consideration of the officer’s knowledge, but of his
malice or, alternatively, good faith. See Krohn v.
United States, 742 F.2d 24, 31 (1st Cir. 1984).
Indeed, as the Harlow majority recognized, “a
reasonably competent public official should know the
law governing his conduct.” Harlow, 102 S. Ct. at
2738. If an official can be held accountable for what
he is presumed to know, it is neither illogical nor
unfair to hold him accountable for what he admits he
actually knows.
Thus, the Tenth Circuit, citing Justice Brennan’s
concurrence in Harlow, has specifically stated that a
“government official who actually knows that he is
violating the law is not entitled to qualified immunity
even if [his] actions [are] objectively reasonable.”
Pleasant v. Lovell, 876 F.2d 787, 798 (10th Cir.
1989). Other federal courts likewise recognize this
common sense notion. See, e.g., Russo v. Massullo,
1991 WL 27420 at *6 (6th Cir. March 5, 1991)
(“Qualified immunity is not intended to protect those
who knowingly violate the law;” officer who testified
he knew he could not seize property not entitled to
qualified immunity), cert. denied, 112 S. Ct. 80
(1991); Krohn, 742 F.2d at 31 (“If a plaintiff proves
some peculiar or unusual source, specially known to
the defendant, then, by hypothesis, this is what the
defendant, as a reasonable man, must take into
account.”); Zweibon v. Mitchell, 720 F.2d 162, 171
n.16 (D.C. Cir. 1983) (“We would not have our opinion

69a
read to excuse the extraordinarily sly violator who
actually knows that he was violating the law . . . ,
even if he could not reasonably have been expected to
know what he actually did know. The Court’s Harlow
opinion appears to have been carefully crafted to
avoid such an egregious, if doubtless rare, result.”),
cert. denied, 105 S. Ct. 244 (1984) (citation and
internal quotation marks omitted). See also Greater
Los Angeles Council on Deafness, Inc. v. Zolin, 812
F.2d 1103, 1109 n.7 (9th Cir. 1987) (officials waived
qualified immunity after acknowledging awareness of
requirements to accommodate disabled potential
jurors by virtue of past lawsuit); Arrington v.
McDonald, 808 F.2d 466, 467-68 (6th Cir. 1986)
(remanding for further proceedings where officers
acknowledged it would be unconstitutional to arrest
plaintiff solely to ascertain her identity and jury’s
verdict did not answer question why plaintiff was
arrested).
Defendants maintain their testimony establishes
only that the Denver Police Department’s policy on
this issue was more protective of First Amendment
rights than the Constitution required. See Davis v.
Scherer, 468 U.S. 183, 194 (1984) (“Officials sued for
constitutional violations do not lose their qualified
immunity merely because their conduct violates some
statutory or administrative provision.”); Herring v.
Keenan, 218 F.3d 1171, 1180 (10th Cir. 2000), cert.
denied, 122 S. Ct. 96 (2001) (same). This argument
mischaracterizes the nature of the evidence
presented in support of the City’s motion for
summary judgment.
Indeed, the City specifically argued – and this
court found – that the 2007 Training Bulletin,

70a
representing official City policy, was not limited
solely to the activities of the activist organization
CopWatch. (See Order Re: Defendants’ Motion for
Partial Summary Judgment at 22-23 & n.20, 25.)
Yet it was precisely the activities of organizations
such as CopWatch which I previously found
represented the outer boundaries of the clearly
established law, and thus entitled the officer
defendants to qualified immunity. (See Order Re:
Objections to Recommendation of United States
Magistrate Judge at 5-7 (discussing particularly
Fields v. City of Philadelphia, 862 F.3d 353 (3rd Cir.
2017).)
Likewise, the City relied on – and I found
persuasive – the content of a training course which
Detective Bauer and Officers Evans, Jones, and
Robledo all completed in 2013, which specifically
advised officers that “The Civil Rights Division of the
Justice Department . . . declar[ed] that citizens have
a First Amendment Right to videotape the actions of
police officers in public places and that seizure or
destruction of such recordings violates constitutional
rights.” That pronouncement was not tied to some
quirk of DPD policy, nor was it limited in any way,
including in the way I previously found dispositive
for qualified immunity purposes.
Finally, the defendant officers all testified to
their understanding of what the First Amendment
demanded, and it appears clear they believed DPD
policy was consistent with that constitutional
imperative.
The
evidence
supports
that
understanding as both broad and grounded in the
Constitution itself.

71a
Thus, based on the new facts revealed in
discovery, and to prevent clear error and manifest
injustice, I find and conclude Mr. Frasier’s First
Amendment retaliation claims against the individual
officer defendants should be reinstated.2 However, I
will afford defendants the opportunity to contest the
evidentiary sufficiency of these claims via a motion
for summary judgment limited to those discrete
matters.3
THEREFORE, IT IS ORDERED as follows:
1. That Plaintiff’s Motion To Reconsider Order
Re: Objections to Recommendation of United States
Magistrate Judge [Dkt. 70] [#107], filed August 17,
2018, is granted;

Although those claims were dismissed at the pleading
stage, I reject defendants’ hypertechnical (and not altogether
cogent) suggestion that Mr. Frasier’s failure to include these
facts in his complaint somehow prevents the court from
considering them now. It is not clear how defendants imagine
Mr. Frasier would have known these facts prior to discovery
(unless they suggest he risk a Rule 11 violation), which the very
nature of the qualified immunity analysis prevents him from
pursuing until after the allegations of the complaint are vetted.
Even if this evidence had been available to Mr. Frasier at the
time the 12(b) motion was briefed, the court certainly could have
considered it under Fed. R. Civ. P. 12(d) without requiring Mr.
Frasier to amend his complaint.
2

The motion shall be filed by the date indicated in this
order. Deadlines to file the response and reply (if any) shall be
governed by D.C. COLO. LCIVR 7.1(d). All briefs submitted must
comply with the requirements of REB Civ. Practice Standard
IV.B.2. I further note my intention to maintain the extant trial
date of this already overly protracted case, and my extreme
disinclination to grant any extension of these deadlines.
3

72a
2. That the following paragraphs of my Order
Re: Objections to Recommendation of Magistrate
Judge [#70], filed September 28, 2017, are vacated:
a. Paragraph 1.a(1) at 11;
b. Paragraph 3.a(1) at 11;
c. Paragraph 4.a. at 12; and
d. Paragraph 6.a. at 12-13; and
3. That Mr. Frasier’s First Amendment
retaliation claims against defendants Christopher L.
Evans; Charles C. Jones; John H. Bauer; Russell
Bothwell; and John Robledo are reinstated; and
4. That defendants may file a motion for
summary judgment as to these claims on or before
December 4, 2018.
Dated November 21, 2018, at Denver, Colorado.
BY THE COURT:

Bob Blackburn

Robert E. Blackburn
United States District Judge

